No. 20A-____
IN THE

Supreme Court of the United States
EARLENE PETERSON, KIMMA GURREL, AND MONICA VEILLETTE,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
On Application for Stay
APPENDIX TO
EMERGENCY APPLICATION TO STAY THE MANDATE AND VACATE
THE DECISION OF THE SEVENTH CIRCUIT COURT OF APPEALS
PENDING A WRIT OF CERTIORARI
H. Baker Kurrus
H. BAKER KURRUS, PLLC
10816 CRESTDALE LANE
Little Rock, AR 72212
Tel: (501) 831-0325

MATTHEW M. COLLETTE
COUNSEL OF RECORD
JONATHAN S. MASSEY
KATHRYN A. ROBINETTE
MASSEY & GAIL LLP
1000 Maine Ave. SW, Suite 450
Washington, D.C. 20024
Tel: (202) 652-4511
mcollette@masseygail.com
Counsel for Petitioners

July 13, 2020

Case: 20-2252

Document: 15

Filed: 07/12/2020

Pages: 10

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 20-2252
EARLENE BRANCH PETERSON,
KIMMA GUREL, and MONICA VEILLETTE,
Plaintiffs-Appellees,
v.
WILLIAM P. BARR, Attorney General
of the United States, MICHAEL CARVAJAL,
and T. J. WATSON, Warden,
Defendants-Appellants.
____________________
Appeal from the United States District Court
for the Southern District of Indiana, Terre Haute Division.
No. 2:20-cv-00350-JMS-DLP — Jane Magnus-Stinson, Chief Judge.

____________________
SUBMITTED JULY 11, 2020 — DECIDED JULY 12, 2020
____________________
Before SYKES, Chief Judge, and EASTERBROOK and BARRETT,
Circuit Judges.
SYKES, Chief Judge. In 1996 Daniel Lewis Lee murdered an
Arkansas family of three in pursuit of funds to support the
racketeering activities of a white supremacist organization.
The crimes were particularly heinous. Lee and his codefend-

(Appx1)

Case: 20-2252

2

Appx2 Filed: 07/12/2020

Document: 15

Pages: 10

No. 20-2252

ant were members of the Aryan Peoples’ Republic, a white
supremacist group that sought to establish an independent
nation in the Pacific Northwest. In January 1996 they traveled from the State of Washington to the Arkansas home of
firearms dealer William Mueller; his wife, Nancy; and their
eight-year-old daughter Sarah. After stealing a cache of
weapons and a large amount of cash and coins, they shot the
three victims with a stun gun, duct taped plastic bags over
their heads to asphyxiate them, weighed their bodies down
with rocks, and threw them in a bayou. The bodies washed
up in an Arkansas lake about six months later.
In 1999 a federal jury in the Eastern District of Arkansas
convicted Lee of three counts of capital murder in aid of
racketeering, 18 U.S.C. § 1959(a)(1), and sentenced him to
death. Now more than two decades later, Lee has exhausted
all appeals, including multiple rounds of postconviction
review, and is scheduled to be executed on Monday, July 13,
2020, at the United States Penitentiary in Terre Haute,
Indiana. The execution was originally scheduled to take
place on December 9, 2019, but was enjoined by two district
judges, one in the Southern District of Indiana (where the
prison is located) in connection with Lee’s petition for
habeas corpus under 28 U.S.C. § 2241, and another in the
District of Columbia who was hearing a challenge to the
federal execution protocol brought by Lee and other deathrow inmates at the Terre Haute prison. We described this
litigation history in our opinion two days ago affirming the
Indiana judge’s final order denying § 2241 relief. Lee v.
Watson, No. 20-2128, slip op. at 3–6 (7th Cir. July 10, 2020).
For present purposes, it’s enough to say that on December 6,
2019, we vacated the stay in the § 2241 habeas proceeding,
Lee v. Watson, No. 19-3399, 2019 WL 6718924 (7th Cir. Dec. 6,

Case: 20-2252

No. 20-2252

Appx3 Filed: 07/12/2020

Document: 15

Pages: 10

3

2019), and the Court of Appeals for the District of Columbia
Circuit vacated the injunction in the execution-protocol case
on April 7, 2020, In re Fed. Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106 (D.C. Cir. 2020). The Bureau of Prisons
(“BOP”) thereafter rescheduled Lee’s execution for July 13,
2020, at 4 p.m. EDT.
On July 7, 2020, three family members of the victims filed
a complaint in the Southern District of Indiana seeking to
enjoin the BOP from carrying out Lee’s execution. The
plaintiffs—Earlene Peterson, age 81 (Nancy’s mother);
Kimma Gurel, age 61 (Nancy’s sister); and Monica Veillette,
age 43 (Nancy’s niece)—want to attend the execution even
though they oppose it. The Warden has authorized them to
be witnesses, but they object to the BOP’s decision to carry
out the execution during the COVID-19 pandemic. They
raise health concerns due to age, underlying medical conditions, the need to travel interstate to reach the Terre Haute
prison, and the current degree of COVID-19 spread
throughout the country. They seek to delay the execution
until the pandemic is suppressed by widespread vaccination
or effective treatment. The suit names the Attorney General,
the BOP Director, and the Warden as defendants; we refer to
them collectively as “the government.” The plaintiffs allege
that the agency’s decision to schedule Lee’s execution for
July 13 failed to adequately account for the effect of the
pandemic on their right to attend and thus is arbitrary,
capricious, and contrary to law in violation of the Administrative Procedure Act (“APA”), 5 U.S.C. § 706(2)(A).
Late in the day on Friday, July 10, a district judge in the
Southern District of Indiana issued a preliminarily injunction
enjoining the defendants “from carrying out the execution of

Case: 20-2252

4

Appx4 Filed: 07/12/2020

Document: 15

Pages: 10

No. 20-2252

Daniel Lewis Lee on July 13, 2020, or on any future date,
pending final resolution of the merits of this case or until
further order of this [c]ourt.” Order Granting Plaintiffs’
Motion for Preliminary Injunction at 14, ECF. No. 20. The
judge ruled that “the plaintiffs have shown a strong likelihood of prevailing on their claim that the defendants’ setting
of Mr. Lee’s execution date without considering their right to
be present was arbitrary and capricious and not in accord[ance] with [the] law.” Id. at 11.
The government immediately appealed and sought a
stay from the district court. That request was promptly
denied. On Saturday morning, July 11, the government filed
an emergency motion asking us to summarily stay or vacate
the preliminary injunction. We ordered a response from the
plaintiffs by 6 p.m. CDT. They complied. The government
filed a reply late last night.
We vacate the preliminary injunction. The plaintiffs’
APA claim lacks any arguable legal basis and is therefore
frivolous.
First, the challenged agency action—setting a date for execution—may not be judicially reviewable at all. The APA
does not permit judicial review of an action “committed to
agency discretion by law.” 5 U.S.C. § 701(a)(2); Heckler v.
Chaney, 470 U.S. 821, 829–33 (1985). The government argues
that scheduling an execution date is such an action. “When
deciding whether a decision is committed to agency discretion, we first review the applicable statutes and regulations.”
Menominee Indian Tribe of Wis. v. EPA, 947 F.3d 1065, 1072
(7th Cir. 2020). The object is “to see if they contain ‘judicially
manageable standards … for judging how and when an

Appx5 Filed: 07/12/2020

Case: 20-2252

Document: 15

No. 20-2252

Pages: 10

5

agency should exercise its discretion.’” Id. (quoting Chaney,
470 U.S. at 830) (omission in original).
As relevant here, the Federal Death Penalty Act directs
that “[a] person who has been sentenced to death” must be
“committed to the custody of the Attorney General until
exhaustion of the procedures for appeal of the judgment of
conviction and for review of the sentence.” 18 U.S.C.
§ 3596(a). It continues: “When the sentence is to be implemented, the Attorney General shall release the person
sentenced to death to the custody of a United States
[M]arshal, who shall supervise implementation of the sentence in the manner prescribed by the law of the [s]tate in
which the sentence [was] imposed”—here, Arkansas. Id. (If
the forum state does not have a death penalty, the Act
directs the district court to designate another state. Id.)
The applicable regulations delegate broad discretion to
the BOP Director to set execution dates:
(a) Except to the extent a court orders otherwise, a sentence of death shall be executed:
(1) On a date and at a time designated by
the Director of the Federal Bureau of Prisons, which date shall be no sooner that
60 days from the entry of the judgment of
death. If the date designated for execution
passes by reason of a stay of execution, then
a new date shall be designated promptly by
the Director … when the stay is lifted.
28 C.F.R. § 26.3(a)(1).
Another regulation provides:

Case: 20-2252

6

Appx6 Filed: 07/12/2020

Document: 15

Pages: 10

No. 20-2252
Except to the extent a court orders otherwise:
(a) The Warden of the designated institution
shall notify the prisoner under sentence of
death of the date designated for execution at
least 20 days in advance, except when the date
follows a postponement of fewer than 20 days
of a previously scheduled and noticed date of
execution, in which case the Warden shall notify the prisoner as soon as possible.

Id. § 26.4(a).
Perhaps the minimal constraints imposed by these regulatory requirements—the 60-day postjudgment waiting
period and the 20-day notice to the prisoner—are enough to
preclude a conclusion that the BOP Director’s scheduling
decisions are entirely unreviewable under § 701(a)(2). For
example, if a prisoner sued for inadequate notice of an
execution date, a court could review that decision. But if the
BOP observes the minimal requirements in the regulations—
as it did here—then it has the unconstrained discretion to
choose a date for the execution.
The plaintiffs’ claim is frivolous for another reason: they
have no statutory or regulatory right to attend the execution.
Judicial review under the APA is limited to persons who are
“adversely affected or aggrieved by agency action within the
meaning of a relevant statute.” 5 U.S.C. § 702. Accordingly, a
plaintiff must establish that “the injury he complains of …
falls within the zone of interests sought to be protected by
the statutory provision whose violation forms the legal basis
for his complaint.” Air Courier Conference of Am. v. Am. Postal

Appx7 Filed: 07/12/2020

Case: 20-2252

Document: 15

No. 20-2252

Pages: 10

7

Workers Union AFL-CIO, 498 U.S. 517, 523–24 (1991) (quotation marks omitted).
The plaintiffs cannot satisfy this basic requirement. No
federal statute or regulation gives them a right to attend
Lee’s execution. Needless to say, executions are not public
proceedings. The Federal Death Penalty Act makes no
mention of witnesses, whether members of the victims’
family or others. In their complaint and motion for a preliminary injunction, the plaintiffs relied on the following regulation:
(c) In addition to the Marshal and Warden, the
following persons shall be present at the execution:
(1) Necessary personnel selected by the
Marshal and Warden;
(2) Those attorneys of the Department of
Justice whom the Deputy Attorney General
determines are necessary;
(3) Not more than the following numbers of
person[s] selected by the prisoner:
(i) One spiritual adviser;
(ii) Two defense attorneys; and
(iii) Three adult friends or relatives; and
(4) Not more than the following numbers of
persons selected by the Warden:
(i) Eight citizens; and
(ii) Ten representatives of the press.

Case: 20-2252

Appx8 Filed: 07/12/2020

Document: 15

8

Pages: 10

No. 20-2252
(d) No other person shall be present at the execution, unless leave for such person’s presence
is granted by the Director of the Federal
Bureau of Prisons. No person younger than
18 years of age shall witness the execution.

28 C.F.R. § 26.4(c)–(d) (emphasis added).
The plaintiffs argued below that subsection (c)(4)(i) of
§ 26.4 gives them a legally enforceable right to attend the
execution. It does not. The regulation specifies who may be
permitted by the Warden to attend an execution. It is a limitation on, not an entitlement to, witness attendance. It is not
designed to protect the plaintiffs; the regulation does not
even mention victims’ family members. Nothing in the
regulation gives the plaintiffs a right to require the BOP to
schedule Lee’s execution at a time when they are willing or
able to attend. Nor does the regulation require their attendance before the execution may proceed.
Indeed, the district judge did not credit this argument.
Instead, she developed her own theory of the case. Setting
aside the impropriety of this maneuver, see United States v.
Sineneng-Smith, 140 S. Ct. 1575, 1582 (2020), the judge’s
theory is no more viable than the one raised by the plaintiffs.
Recall that the Federal Death Penalty Act provides that
an execution shall be implemented “in the manner prescribed by the law of the [s]tate in which the sentence is
imposed,” § 3596(a)—again, Arkansas. Relying on the D.C.
Circuit’s decision in Execution Protocol Cases, the judge
concluded that § 3596(a) incorporates Arkansas law governing execution witnesses—more specifically, section 16-90-

Case: 20-2252

No. 20-2252

Appx9 Filed: 07/12/2020

Document: 15

Pages: 10

9

502(e)(1) of the Arkansas Code. That reasoning seriously
misreads the D.C. Circuit’s decision and federal law.
By its terms, § 3596(a) incorporates the forum state’s law
regarding the “manner” of implementing a death sentence.
At issue in Execution Protocol Cases was whether this provision incorporates only “a [s]tate’s choice among execution
methods such as hanging, electrocution, or lethal injection,”
or whether it also requires the federal government to adhere
to the “subsidiary details” of the state’s chosen execution
method. 955 F.3d at 108. The D.C. Circuit split three ways.
Judge Katsas concluded that § 3596(a) incorporates only the
“top-line choice among execution methods such as hanging,
electrocution, or lethal injection.” Id. at 113 (Katsas, J., concurring). Judge Rao interpreted the incorporation language
more broadly to include the procedures governing the
manner of execution formally established by state statute or
regulation, but not informal protocols or procedures. Id. at
130 (Rao, J., concurring). As relevant here, Judge Rao identified section 5-4-617 of the Arkansas Code—the provision
specifying the state’s lethal-injection procedures—as the
incorporated state law in Lee’s case. Id. at 142. Judge Tatel
dissented. He agreed with Judge Rao that § 3596(a) incorporates state procedures for effectuating death as contained in
statutes and regulations. Id. at 146 (Tatel, J., dissenting). But
he concluded that the statute also incorporates informal
protocols if “issued by state prison officials pursuant to state
law.” Id.
Nothing in any of the separate opinions in Execution Protocol Cases supports the judge’s conclusion that § 3596(a)
incorporates the Arkansas Code provision governing execution witnesses. To the contrary, the debate among the D.C.

Case: 20-2252

10

Appx10Filed: 07/12/2020

Document: 15

Pages: 10

No. 20-2252

Circuit judges was limited to state laws, regulations, and
protocols governing procedures for effectuating death. Indeed,
even the dissenting judge accepted that § 3596(a) does not
require the BOP to follow “every nuance” of state execution
procedure, but rather only “those procedures that effectuate
the death, including choice of lethal substances, dosages,
vein-access procedures, and medical-personnel requirements.” Id. at 151 (alteration and citations omitted). Section
3596(a) cannot be reasonably read to incorporate every
aspect of the forum state’s law regarding execution procedure. We do not understand the word “manner” as used in
§ 3596(a) to refer to details such as witnesses. The word
concerns how the sentence is carried out, not who watches.
In short, section 16-90-502(e)(1) of the Arkansas Code, the
provision governing execution witnesses, is irrelevant here.
The judge was wrong to insert it into this case.
INJUNCTION VACATED

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 1 of 14 PageID #: 228

Appx11

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
EARLENE PETERSON,
KIMMA GUREL,
MONICA VEILLETTE,

)
)
)
)
)
)
)
)
)
)
)
)
)

Plaintiffs,
v.
WILLIAM P. BARR,
MICHAEL CARVAJAL,
T.J. WATSON,
Defendants.

No. 2:20-cv-00350-JMS-DLP

Order Granting Plaintiffs' Motion for Preliminary Injunction
Federal death row inmate Daniel Lee Lewis is scheduled to be executed on July 13, 2020,
at United States Penitentiary − Terre Haute (USP − Terre Haute) in Terre Haute, Indiana.
Plaintiffs Earlene Peterson, Kimma Gurel, and Monica Veillette are members of Mr. Lee's
victims' families and have been selected by the Warden of USP-Terre Haute to attend the
execution. The plaintiffs seek to enjoin Mr. Lee's execution on the basis that defendants have
violated the Administrative Procedure Act (APA) by scheduling Mr. Lee's execution during the
COVID-19 pandemic without adequate measures in place to protect them. The defendants oppose
the motion on the bases that the decision of when to set an execution is an unreviewable agency
action, the plaintiffs are outside the zone of interests, and the government's decision to promptly
schedule the executions was not arbitrary and capricious.

1

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 2 of 14 PageID #: 229

Appx12

I.
A.

Factual and Procedural Background

Mr. Lee's Crimes, Sentence, and Procedural History

In 1999, a jury in the United States District Court for the Eastern District of Arkansas
convicted Mr. Lee of conspiring to violate and violating the Racketeer Influenced and Corrupt
Organizations (RICO) statute, 18 U.S.C. § § 1962(c) and (d), and of three murders. United States
v. Lee, 374 F.3d 637, 641 (7th Cir. 2004). Mr. Lee's murder victims were William Mueller,
Nancy Mueller, and Nancy Mueller's eight-year-old daughter, Sarah Powell. Id. at 641–42.
Mr. Lee was sentenced to death. Id. at 643.
Mr. Lee's conviction was affirmed on appeal, id. at 641, and his petition for certiori was
denied, 545 U.S. 1141 (2005). He has unsuccessfully sought post-conviction relief pursuant to 28
U.S.C. § 2555 and has exhausted all appeals as to his § 2255 proceedings. See United States v.
Lee, No. 4:97-CR-00243-(2), 2008 WL 4079315, at *1 (E.D. Ark. Aug. 28, 2008), aff'd, 715 F.3d
215 (8th Cir. 2013), rehearing denied, 811 F.3d 272 (8th Cir. 2015), cert. denied, 135 S. Ct. 72
(2014); United States v. Lee, No. 4:97-cr-00243-02, 2014 WL 1093197, at *1 (E.D. Ark. Mar.
18, 2014), aff'd, 792 F.3d 1021 (8th Cir. 2015), rehearing denied, 811 F.3d 272 (8th Cir. 2015),
cert denied, 137 S. Ct. 1577 (2017).
On July 25, 2019, the Attorney General announced that capital executions would resume
after nearly two decades without any executions in the federal system. See The United States
Department of Justice, "Federal Government to Resume Capital Punishment After Nearly Two
Decade Lapse," July 25, 2019, https://www.justice.gov/opa/pr/federal-government-resumecapital-punishment-after-nearly-two-decade-lapse. The Bureau of Prisons (BOP) adopted a
revised addendum to its lethal injection protocol that replaced the previous three-drug procedure
with the use of a single drug, pentobarbital sodium, as the lethal agent. Id. In announcing the
change to the injection protocol, DOJ also established execution dates for five condemned federal
inmates, including Mr. Lee. Id. Mr. Lee's execution was scheduled for December 9, 2019.
2

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 3 of 14 PageID #: 230

Appx13

Mr. Lee filed suit challenging BOP's single-drug protocol and on November 20, 2019,
the district court issued a preliminary injunction staying the executions. In re Federal Bureau of
Prisons' Execution Protocol Cases, 955 F. 3d 106, 111 (D.C. Cir. 2020) ("Execution Protocol
Cases"). That injunction was vacated by the D.C. Circuit on April 7, 2020. Id. at 108.
On June 29, 2020, the Supreme Court denied an application for a stay of the mandate. Bourgeois
v. Barr, 19-1348, --- S. Ct. ---, 2020 WL 3492763.
B.

The Novel Coronavirus and Mr. Lee's Scheduled Execution

The novel coronavirus ("COVID-19") has been spreading in the United States since early
2020. As of July 9, 2020, there were 3,047,671 reported cases in the United States, including
368,441 cases in the past week. Centers for Disease Control and Prevention, Covid Data Tracker,
https://www.cdc.gov/covid-data-tracker/#cases (last visited July 10, 2020). 132,056 people have
died from the virus in the United States. Id. In Indiana, there have been 49,063 confirmed cases and
2,732 resulting deaths. Indiana COVID-19 Dashboard, https://www.coronavirus.in.gov/2393.htm
(last visited July 10, 2020). Due to COVID-19, the Bureau of Prisons has limited inmate movement
and suspended social and legal visits. See "BOP Implementing Modified Operations,"
https://www.bop.gov/coronavirus/covid19_status.jsp (last accessed July 10, 2020).
Nevertheless, on June 15, 2020, with the COVID-19 pandemic well underway, the
Department of Justice announced four execution dates, including Mr. Lee's on July 13, 2020. See
Press Release, Dep't of Justice, "Executions Scheduled for Four Federal Inmates Convicted of
Murdering Children" (June 15, 2020), https://www.justice.gov/opa/pr/executions-scheduledfourfederal-inmates-convicted-murdering-children.

3

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 4 of 14 PageID #: 231

Appx14

C.

The Plaintiffs

The plaintiffs in this action are relatives of the victims:
Plaintiff Earlene Branch Peterson is Nancy Mueller's mother and Sarah Powell's
grandmother. 1 Dkt. 1 at ¶ 5. She is 81 years old and lives in Hector, Arkansas, more than 500 miles
from Terre Haute. Id. at ¶ 13. She suffers from congestive heart failure and has other underlying
health conditions that put her at increased risk for developing COVID-19-related complications.
Dkt. 17-1, ¶ 4. Pursuant to her doctor's directions, she has remained at home since March 10, 2020,
receiving deliveries for groceries and medicine. Id. at ¶¶ 4, 6.
Plaintiff Kimma Gurel is Nancy Mueller's sister and Sarah Powell's aunt. Id. at ¶ 6. She is
61 years old and lives in Spokane Valley, Washington, nearly 2,000 miles from Terre Haute. Id.
at ¶ 14. She also has underlying health conditions that put her at an increased risk for COVID-19related complications. Id.
Plaintiff Monica Veillete is Nancy Mueller's niece and Sarah Powell's cousin. Id. at ¶ 7.
She is 43 years old and lives in Deer Park, Washington, nearly 2,000 miles from Terre Haute. Id.
at ¶ 15.
28 C.F.R. § 26.4 provides that up to eight "citizens" "selected by the Warden" shall be
present at the execution. The BOP Execution Protocol states that the Warden will select up to eight
citizens and that "in identifying these individuals, the Warden, no later than 30 days after the
setting of an execution date, will ask the United States Attorney for the jurisdiction in which the
inmate was prosecuted to recommend up to eight individuals who are victims or victim family

1

The defendants refer to the plaintiffs merely as "extended family members of Mr. Lee's victims."
Dkt. 10 at 3. This insensitivity reflects the defendants' pervasive indifference for the plaintiffs'
legal and personal interests in Mr. Lee's scheduled execution.
4

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 5 of 14 PageID #: 232

Appx15

members to be witnesses of the execution." Dkt. 9 at 10. All three plaintiffs were selected by the
Warden to witness Mr. Lee's execution.
On July 2, 2020, Dale Hartkemeyer (aka Seigen) filed a complaint in this Court.
Hartkemeyer v. Barr, et al., No. 2:20-cv-00036-JMS-DLP. Mr. Hartkemeyer is the spiritual
advisor to inmate Wesley Purkey, whose execution is scheduled for July 15, 2020.
Mr. Hartkemeyer alleged that the government's plan to execute Mr. Purkey violated his rights
under the Religious Freedom Restoration Act (RFRA) and the APA in light of the risks posed by
COVID-19. Id. at 1. On July 7, 2020, the plaintiffs moved to intervene in Mr. Hartkemeyer's case.
Dkt. 35. The Court denied their request, finding that although both cases accuse the defendants of
violations of the APA, the facts underlying the claims were different. Dkt. 54 at 4. The Court
directed the clerk to open a new action based on the plaintiffs' proposed complaint. Id. at 4–5.
The plaintiffs argue that the government violated the APA by scheduling Mr. Lee's
execution during the ongoing COVID-19 pandemic, making it dangerous for them to attend.
II.

Preliminary Injunction Standard

"A preliminary injunction is an extraordinary remedy never awarded as of right." Winter
v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). The plaintiff must satisfy a four-prong
test, establishing "that he is likely to succeed on the merits, that he is likely to suffer irreparable
harm in the absence of preliminary relief, that the balance of equities tips in his favor, and that an
injunction is in the public interest." Id.
"'A party moving for preliminary injunctive relief need not demonstrate a likelihood of
absolute success on the merits. Instead, he must only show that his chances to succeed on his
claims are better than negligible.'" Valencia v. City of Springfield, 883 F.3d 959, 966 (7th Cir.
2018) (quoting Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1046

5

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 6 of 14 PageID #: 233

Appx16

(7th Cir. 2017). But if it is clear that the party cannot show a likelihood of success on the merits,
the Court should refuse the injunction regardless of the balance of harms. Id. at 966.
Finally, "before granting a stay, a district court must consider not only the likelihood of
success on the merits and the relative harms to the parties, but also the extent to which the [movant]
has delayed unnecessarily in bringing the claim." Nelson v. Campbell, 541 U.S. 637, 649−50
(2004).
III.
A.

Discussion

Likelihood of Success on the Merits

The defendants argue that the plaintiffs are unlikely to succeed on the merits for three
reasons: 1) judicial review is unavailable under the APA; 2) the plaintiffs do not fall within the
"zone of interests" of any relevant law to challenge an execution date; and 3) the Attorney General's
decision was not arbitrary or capricious, nor was it "not in accordance with law." The Court
addresses each argument in turn.
1.

The Plaintiffs Have a Strong Likelihood of Showing Their Claim Is
Reviewable under the APA.

"The APA 'sets forth the procedures by which federal agencies are accountable to the public
and their actions subject to review by the courts.'" Dep't of Homeland Sec. v. Regents of the Univ.
of California, 140 S. Ct. 1891, 1905 (2020) (quoting Franklin v. Massachusetts, 505 U.S. 788, 796
(1992)). "A person suffering legal wrong because of agency action, or adversely affected or
aggrieved by agency action within the meaning of a relevant statute, is entitled to judicial review
thereof." 5 U.S.C. § 702.
"The APA establishes a 'basic presumption of judicial review [for] one suffering legal
wrong because of agency action.'" Regents of the Univ. of California, 140 S. Ct. at 1905 (quoting
Abbott Labs. v. Gardner, 387 U.S. 136, 140 (1967)). The agency may rebut that presumption by
6

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 7 of 14 PageID #: 234

Appx17

establishing that its action falls into one of two exceptions set out in 5 U.S.C. § 701. See id.
First, the APA does not permit judicial review where "statutes preclude judicial review" of the
agency action. 5 U.S.C. § 701(a)(1). Second, the APA does not permit judicial review where the
action "is committed to agency discretion by law." 5 U.S.C. § 701(a)(2).
The defendants argue that their decision to schedule an execution is committed to agency
discretion by law. But courts are directed to read § 701(a)(2)'s exception "quite narrowly,
restricting it to those rare circumstances where the relevant statute is drawn so that a court would
have no meaningful standard against which to judge the agency's exercise of discretion." Dep't of
Commerce v. New York, 139 S. Ct. 2551, 2568 (2019) (internal quotation omitted). And contrary
to the defendants' suggestion, agency decisions regarding implementation of the death penalty are
not categorically off limits. See generally Execution Protocol Cases, 955 F. 3d 106 (reviewing
claims regarding agency's execution protocol under the APA). Indeed, in the Execution Protocol
Cases, neither the Supreme Court nor any of the opinions in the D.C. Circuit Court of Appeals
embraced the defendants' argument here that such claims are unreviewable. Id.; see Bourgeois v.
Barr, --- S. Ct. ----, 2020 WL 3492763 (Mem.) (denying certiorari).
Here, the Federal Death Penalty Act of 1994 (FDPA) provides the relevant standards. The
FDPA provides that a person sentenced to death "shall be committed to the custody of the Attorney
General until exhaustion of the procedures for appeal of the judgment of conviction and for review
of the sentence." 18 U.S.C. § 3596(a). "When the sentence is to be implemented, the Attorney
General shall release the person sentenced to death to the custody of a United States marshal, who
shall supervise implementation of the sentence in the manner prescribed by the law of the State in
which the sentence is imposed." Id.

7

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 8 of 14 PageID #: 235

Appx18

The "law of the State in which the sentence is imposed" includes state statutes and binding
regulations that govern the execution process. Execution Protocol Cases, 955 F.3d at 134 (Rao, J.,
concurring) ("federal government [must] follow all procedures prescribed by state statutes and
formal regulations, but no more."). 2 As relevant here, Arkansas law provides a fairly robust
statutory scheme governing the conduct of executions. See Ark. Code §§ 4-5-617, 16-90-502.
Thus, the FDPA does not commit the choice of scheduling an execution to agency
discretion. The agency's discretion is bound by the language of the FDPA and by "the law of the
State in which the sentence is imposed." 18 U.S.C. § 3596(a).
2.

The plaintiffs Have a Strong Likelihood of Showing They State a Claim
Within the FDPA's Zone of Interests.

The Court may review the plaintiffs' APA claim only if they are "aggrieved by agency
action . . . within the meaning of a relevant statute." 5 U.S.C. § 702. To satisfy this requirement,
the plaintiffs' claim must at least be "arguably within the zone of interests" that Congress sought
to protect or regulate under the statute in question. Ass'n of Data Processing Serv. Orgs. v. Camp,
397 U.S. 150, 153 (1970).
The defendants assert that the FDPA "makes no provision for witnesses such as Plaintiffs
to attend an execution, much less provides them a private cause of action to protect their rights."
Dkt. 10 at 13−14 (emphasis in original). True, the FDPA itself does not explicitly mention victims,
but it does provide that an execution must proceed "in the manner prescribed by the law of the
State in which the sentence is imposed." 18 U.S.C. § 3596(a); See Execution Protocol Cases, 955
F.3d at 134 (Rao, J., concurring). And Arkansas law provides significant rights to victims' family
members in the context of an execution.
2

The D.C. Circuit's decision in Execution Protocol Cases does not bind this Court, but the Court
recognizes Judge Rao's concurrence, which provides the narrower basis for the result, as the
controlling opinion. Cf. Marks v. United States, 430 U.S. 188, 193 (1976).
8

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 9 of 14 PageID #: 236

Appx19

Under Arkansas law, a spouse, parent, adult sibling, or adult child of the victim "shall be
present" for the execution "if he or she chooses to be present." Ark. Code § 16-90-502(e)(1)(C).
Two of the three plaintiffs here qualify, as Ms. Peterson is Nancy Mueller's mother, and Ms. Gurel
is Nancy Mueller's adult sibling. The same statute provides that "[t]he director may prohibit a
person who otherwise would be eligible to witness or view an execution under this subsection if
he or she determines the person to be a security risk." Ark. Code § 16-90-502(e)(2). This suggests
that eligible persons cannot be prohibited for any reason whatsoever. Unless they are a security
risk, Arkansas law provides them a right to be present for the execution.
Even if not a spouse, child, sibling, or parent, "[a]ny other adult relative with a close
relationship to the victim" also has rights under the statute. Ark. Code § 16-90-502(e)(2)(D)
(defining "Close relative of the victim"). Specifically, "[a] closed-circuit audiovisual monitor
dedicated to viewing a live broadcast of the execution shall be placed in a location chosen by the
director for the benefit of any close relative of the victim . . . who desires to view the execution
and who is not witnessing the execution as allowed under subdivision (e)(1)(C)." Ark. Code § 1690-502(e)(5)(A). Ms. Veillette satisfies the definition of a "[c]lose relative of the victim."
The FDPA directs federal authorities to follow state law in implementing an execution, and
state law provides rights to victims' family members. The plaintiffs therefore have a strong
likelihood of showing that their claim is "arguably within the zone of interests" Congress intended
to protect with the FDPA.
3.

The plaintiffs Have a Strong Likelihood of Showing that the Defendants'
Setting Execution Dates During a Pandemic Without Adequately
Considering Whether the Victims' Family Could Safely Attend Was
Arbitrary and Capricious or Not in Accordance With Law.

The APA "instructs reviewing courts to set aside agency action that is 'arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance with law.'" Dep't of Commerce, 139 S. Ct.
9

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 10 of 14 PageID #: 237

Appx20

at 2567 (quoting 5 U.S.C. § 706(2)(A)). The reviewing court must limit its inquiry to whether the
agency "examined 'the relevant data' and articulated 'a satisfactory explanation' for its decision,
'including a rational connection between the facts found and the choice made.'" Id. at 2569
(quoting Motor Vehicle Mfrs. Assn. of United States v. State Farm Mut. Automobile Ins. Co., 463
U.S. 29, 43 (1983)). "Under this highly deferential standard, an administrative decision should be
upheld if the agency's path may be reasonably discerned." Sierra Club v. U.S. EPA, 774 F.3d
383, 393 (7th Cir. 2014) (internal quotation omitted).
"But even deferential review should 'be searching and careful' when considering 'whether
the decision was based on a consideration of the relevant factors and whether there has been a clear
error of judgment.'" Boucher v. United States Dep't of Agric., 934 F.3d 530, 547 (7th Cir. 2019)
(quoting Marsh v. Oregon Natural Resources Council, 490 U.S. 360, 378 (1989)). "An agency
decision will be found 'arbitrary and capricious' if it 'relied on factors which Congress has not
intended it to consider, entirely failed to consider an important aspect of the problem, offered an
explanation for its decision that runs counter to the evidence before the agency, or is so implausible
that it could not be ascribed to a difference in view or the product of agency expertise.'" State
Farm, 463 U.S. at 43). "If a reviewing court is faced with 'such deficiencies,' it 'should not attempt
itself to make up' for those gaps by 'supply[ing] a reasoned basis for the agency's action that the
agency itself has not given.'" Id. (quoting State Farm, 463 U.S. at 43).
Even applying the deferential standard, the plaintiffs have a strong likelihood of showing
that the defendants' actions were arbitrary and capricious or not in accordance with law.
The defendants assert that the plaintiffs have no right to be present for the execution. Dkt. 10 at 4
("The fact that Plaintiffs are victims of Lee's crime means that the government has made efforts to
accommodate their attendance, but in terms of legally enforceable rights vis-à-vis Lee's capital

10

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 11 of 14 PageID #: 238

Appx21

sentence, they stand in the shoes of any member of the public."). This assertion alone underscores
that the defendants "entirely failed to consider an important aspect of the problem," see Boucher,
934 F.3d at 547 (internal quotation omitted)—namely, victims' family members' rights to be
present for the execution under Arkansas law.
The agency record, such as it is, offers no help to the defendants. They have produced no
evidence to show that their decision to conduct an execution during a pandemic accounted for the
victims' family's right to be present. To be sure, they have produced evidence that the family
members—like any other member of the public who attends the execution—will have access to
personal protective equipment, soap, and hand sanitizer while on prison grounds. See Hartkemeyer
v. Barr, et al., No. 2:20-cv-336-JMS-DLP, dkt. 51-1, ¶ 11 (Declaration of Rick Winter (July 8,
2020)). But there is no evidence that the defendants considered whether these measures give
adequate protection to the plaintiffs, who have a right to be present under Arkansas law (and thus
the FDPA). The defendants also gave no consideration to whether Ms. Peterson, who must travel
more than 500 miles from Arkansas, and Ms. Gurel, who will travel by plane from Washington,
can safely get to Terre Haute for the execution. See dkt. 10 at 8 (conceding that the government has
no control over the safety of the plaintiffs' travel). And they apparently gave no consideration to
the requirement that closed-circuit viewing be made available for close relatives of the victim. Ark.
Code § 16-90-502(e)(5)(A). Indeed, given the defendants' argument that the plaintiffs are "outside
the zone of interests" it appears they gave no consideration to their rights whatsoever.
Accordingly, the plaintiffs have shown a strong likelihood of prevailing on their claim that
the defendants' setting of Mr. Lee's execution date without considering their right to be present was
arbitrary and capricious and not in accord with law.

11

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 12 of 14 PageID #: 239

Appx22

B.

Irreparable Harm

The defendants argue that the only potential harm to the plaintiffs is "the mere 'possibility'
that the plaintiffs will be exposed to COVID-19 if they attend the execution." Dkt. 10 at 19. Not so.
The harm to Ms. Peterson, for example, is being forced to choose whether being present for the
execution of a man responsible for the death of her daughter and granddaughter is worth defying
her doctor's orders and risking her own life.
If there were any doubt about the seriousness of this harm, Ms. Peterson's declaration puts
it to rest:
I am now faced with an impossible choice of either not exercising my right to attend
the execution, or traveling in dangerous conditions which could cause me to become
very sick, or even die.
I want to attend this execution at a time when it is safe for people to travel. Although
I have some medical issues, I can travel if the conditions are not especially
dangerous.
I pray every day for my lost daughter and granddaughter. As a mother I feel very
sorry for Daniel Lewis Lee's mother. I hope somehow by attending I can find some
peace. Right now I am not at peace.
Dkt. 17-1 at 4.
The plaintiffs have shown irreparable harm absent the grant of a preliminary injunction.
C.

Balance of Harms

The government has an interest in the prompt and orderly execution of Mr. Lee's death
sentence. See Bucklew v. Precythe, 139 S. Ct. 1112, 1133 (2019) (the government has "an important
interest in the timely enforcement of a sentence" (internal quotation omitted)); Calderon v.
Thompson, 523 U.S. 538, 556 (1998) (after years of litigation, the government "is entitled to the
assurance of finality"). But the government's interest is intertwined with—and based in part upon—
the victim's interest in timely justice. See Bucklew, 139 S. Ct. at 1133 (ascribing "important interest"
in finality to "[b]oth the [government] and the victims of crime"); Calderon, 523 U.S. at 556 ("Only
12

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 13 of 14 PageID #: 240

Appx23

with real finality can the victims of crime move forward knowing the moral judgment will be carried
out.").
At least three family members of Lee's victims—Ms. Peterson, Ms. Gurel, and
Ms. Veillette—have expressed a greater interest in safely attending the execution than in having the
execution proceed on the government's timetable. The defendants suggest that other family
members may have different priorities. Dkt. 10 at 19 ("[Ms. Peterson] is not the lone family member
of a victim of Mr. Lee's crimes."). But the defendants present no evidence to support that
suggestion. The balance of harms weighs in the plaintiffs' favor.
D.

Public Interest

The public, like the government, has an interest in prompt and orderly execution of
Mr. Lee's death sentence. But the public also has an interest—codified by Congress—in ensuring
that crime victims are "treated with fairness and with respect for the victim's dignity." 18 U.S.C.
§ 3771(a)(8). In this case, the public's interest in a prompt, orderly execution should give way to
their interest in treating Ms. Peterson, Ms. Gurel, and Ms. Veillette with fairness, respect, and
dignity.
E.

Unnecessary Delay

The defendants do not argue that a stay should be denied based on the plaintiffs' unnecessary
delay in bringing the claim. Any such argument is therefore waived.
In any event, the plaintiffs did not unnecessarily delay in bringing their claim. While they
did not file a complaint immediately after Mr. Lee's execution date was announced, they did try to
obtain assurances about safety measures from Bureau of Prisons staff member Steve Markle.
Dkt. 17-2 at ¶¶ 6, 8 (Monica Veillette Affidavit). Ms. Veillette spoke with Mr. Markle several
times, and he informed her that "it would be impossible to maintain social distancing at the witness

13

Case 2:20-cv-00350-JMS-DLP Document 20 Filed 07/10/20 Page 14 of 14 PageID #: 241

Appx24

room, in the hallways, in the transport vans, at checkpoints and at other areas in the prison." Id. at
¶ 8. When Ms. Veillette asked for a written description of the safety measures the Bureau of Prisons
had in place, he responded that he could not provide anything in writing "because it would be
'discoverable.'" Id. at ¶ 10.
The plaintiffs will not be penalized for seeking an informal remedy before filing this lawsuit.
IV. Conclusion
The plaintiffs' motion for preliminary injunction, dkt. [2], is granted to the extent that
the Court enjoins the defendants from carrying out the execution of Daniel Lewis Lee on July 13,
2020, or on any future date, pending final resolution of the merits of this case or until further order
of this Court. The Court will vacate the injunction upon a showing by the defendants of an
agency action setting a date for Mr. Lee's execution in accord with the FDPA and
demonstrating reasonable consideration of the plaintiffs' right to be present for the execution.
The clerk is directed to correct the name of plaintiff Monica Veillette on the docket.
IT IS SO ORDERED.
Date: 7/10/2020

Distribution:
Howard Baker Kurrus
H. Baker Kurrus, PLLC
bkurrus@aol.com
Shelese M. Woods
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
shelese.woods@usdoj.gov

14

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 1 of 29 PageID #: 1

Appx25

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION

EARLENE BRANCH PETERSON, KIMMA GUREL,
and MONICA VEILLETTE,
Plaintiffs,
v.

Case No. ____________

WILLIAM P. BARR, in his official capacity as
Attorney General of the United States; MICHAEL
CARVAJAL, in his official capacity as Director of the
Federal Bureau of Prisons; and T.J. WATSON, in his
official capacity as Complex Warden for Terre Haute
Federal Correction Complex,
Defendants.

[PROPOSED] COMPLAINT FOR DECLARATORY AND INJUNCTIVE RELIEF
Plaintiffs Earlene Branch Peterson, Kimma Gurel, and Monica Veillette (collectively
“Plaintiffs”), by and through their undersigned counsel, bring this Complaint and in support thereof
they allege as follows:
Nature of Action
1.

This action is for declaratory relief, pursuant to 28 U.S.C. § 2201 and Fed. R. Civ.

P. 57, and related injunctive relief, pursuant to 28 U.S.C. § 2202 and Fed. R. Civ. P. 65, and it
arises out of Defendants’ ongoing and future violation of the Administrative Procedure Act, 5
U.S.C. § 551 et seq. (the “APA”).
2.

As alleged below, Defendants are egregiously violating the APA because they have

announced their intention to execute Daniel Lewis Lee on July 13, 2020 at the United States
1

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 2 of 29 PageID #: 2

Appx26

Penitentiary in Terre Haute (USP Terre Haute), even though the COVID-19 pandemic is
worsening and currently ravaging the federal prison system, including USP Terre Haute.
Plaintiffs, who are all members of Mr. Lee’s victims’ families, have been selected to attend the
execution and they have a well-established right to do so. Defendants, however, have placed
Plaintiffs in an untenable position because Plaintiffs cannot exercise those rights unless they put
their own lives at grave risk by traveling to USP Terre Haute and being exposed to COVID-19
while there,
3.

There is no legitimate reason for Defendants to go forward with Mr. Lee’s

execution on July 13, 2020 as opposed to a later date. Defendants have arbitrarily and capriciously
set that execution date, despite the COVID-19 pandemic, without adequately taking into account
Plaintiffs’ health and safety. Thus, Plaintiffs’ rights to attend Mr. Lee’s execution have been
subverted, and the agency action in setting the execution violates the APA because it is “arbitrary
and capricious” and “not in accordance with law.” 28 U.S.C. § 706(2)(A).
4.

Accordingly, through this Complaint, Plaintiffs seek (1) a declaration that

Defendants’ action is unlawful and should be set aside; and (2) an injunction barring Defendants
from setting an execution date for Mr. Lee until such time as Plaintiffs are able to exercise their
right to attend Mr. Lee’s execution without endangering their own lives. 1
Parties
5.

Plaintiff Earlene Branch Peterson is the mother of victim Nancy Mueller and the

grandmother of victim Sarah Powell.

1

The spiritual advisor for another prisoner, Wesley Purkey, has also filed an action in this
Court regarding the risks posed to him by attending Mr. Purkey’s execution, which is scheduled
for July 15, 2020. See Hartkemeyer v. Barr et al., 20-cv-00336 (S.D. Ind.) (the “Hartkemeyer
Action”).
2

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 3 of 29 PageID #: 3

Appx27

6.

Plaintiff Kimma Gurel is Nancy Mueller’s sister and Sarah Powell’s aunt.

7.

Plaintiff Monica Veillette is Nancy Mueller’s niece and Sarah Powell’s cousin.

8.

Defendant William P. Barr is the Attorney General of the United States. He

scheduled Mr. Lee’s execution for July 13, 2020 and has responsibility over carrying out death
sentences against federal prisoners. Defendant Barr maintains an office in Washington, D.C. and
is sued in his official capacity for the purpose of obtaining declaratory and injunctive relief.
9.

Defendant Michael Carvajal is the Acting Director the Federal Bureau of Prisons

(“BOP”). He is responsible for the supervision and operation of all federal prisons, including USP
Terre Haute, where Mr. Lee is scheduled to be executed on July 13, 2020. Defendant Carvajal
maintains an office in Washington, D.C. and is sued in his official capacity for the purpose of
obtaining declaratory and injunctive relief.
10.

Defendant T.J. Watson is the Complex Warden for the Federal Correctional

Complex, Terre Haute (FCC Terre Haute). Defendant Watson maintains an office in Terre Haute,
Indiana and is sued in his official capacity for the purpose of obtaining declaratory and injunctive
relief.
Jurisdiction and Venue
11.

This Court has subject matter jurisdiction over this matter under 28 U.S.C. § 1331

because Plaintiffs seek relief pursuant to 28 U.S.C. §§ 2201 and 2202.
12.

Venue lies in the Southern District of Indiana, where FCC Terre Haute, which

includes USP Terre Haute, is located. Venue is also appropriate under 28 U.S.C. § 1391, as venue
is proper in any district in which a defendant resides.
Statement of Facts

3

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 4 of 29 PageID #: 4

Appx28

I.

Plaintiffs Suffer from A Variety of Ailments.
13.

Plaintiff Earlene Branch Peterson is 81 years old. She lives in Hector, Arkansas, a

distance of more than 500 miles from Terre Haute, Indiana. She suffers from congestive heart
failure and, in addition to her age being a risk factor, also has other underlying conditions, that put
her at increased risk for developing COVID-19-related complications. She attended Mr. Lee’s
capital trial on a daily basis. She has been contacted over the years by members of the prosecution,
who have updated her on the status of proceedings in the case.
14.

Plaintiff Kimma Gurel is 61 years old. She lives in Spokane Valley, Washington,

a distance of nearly 2,000 miles from Terre Haute, Indiana. In addition to her age being a risk
factor, she suffers from underlying health conditions that put her at increased risk for developing
COVID-19-related complications. She attended Mr. Lee’s capital trial on a daily basis.
15.

Plaintiff Monica Veillette is 43 years old. She lives in Deer Park, Washington, a

distance of nearly 2,000 miles from Terre Haute, Indiana. She suffers from asthma and other
underlying conditions that put her at increased risk for developing COVID-19-related
complications. She attended Mr. Lee’s capital trial on a daily basis, and she testified as a witness
for the prosecution.
II.

Plaintiffs Will Be Exposed to Unnecessary and Life-Threatening Risks by Attending
Mr. Lee’s Execution.
16.

Defendants have relied on 28 C.F.R. Part 26 in announcing their intent to execute

Mr. Lee on July 13, 2020. 28 C.F.R. § 26.4 lists the persons who “shall be present” during an
execution and it includes “[e]ight citizens” selected by the Warden. 28 C.F.R. § 26.4(c)(4)(i).
17.

The BOP Execution Protocol (2019) (the “Protocol”), attached hereto as Exhibit A,

repeats the requirement from 28 C.F.R. § 26.4 that the Warden must select eight citizens to attend
4

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 5 of 29 PageID #: 5

Appx29

an execution. See Ex. A, Ch. 1, III.G.1.c.(1), 10-11. The Protocol further provides that, in
identifying those individuals, the Warden “will ask the United States Attorney for the jurisdiction
in which the inmate was prosecuted to recommend up to eight individuals who are victims or
victim family members to be witnesses of the execution.” Id.
18.

The process set forth in the Code of Federal Regulations and Protocol has taken

place and Plaintiffs are among the witnesses selected to attend Mr. Lee’s execution. Therefore,
pursuant to 28 C.F.R. § 26.4, Plaintiffs have the right to attend Mr. Lee’s execution.
III.

COVID-19 is a serious, debilitating and potentially lethal disease, which hits
vulnerable populations with particular severity.
19.

The SARS-CoV-2 virus, and the human infection it causes – COVID-19 – is a

global pandemic, was designated a global health emergency by the World Health Organization,
and was declared a national emergency on March 13, 2020, by President Donald Trump.
20.

In his Proclamation, declaring this national state of emergency, President Trump

noted that “[t]he spread of COVID-19 within our Nation’s communities threatens to strain our
Nation’s healthcare systems. As of March 12, 2020, 1,645 people from 47 States have been
infected with the virus that causes COVID-19.”

Proclamation on Declaring a National

Emergency Concerning the Novel Coronavirus Disease (COVID-19) Outbreak (issued on March
13, 2020). 2
21.

Those numbers have increased dramatically over the past four months. According

to the Centers for Disease Control and Prevention (“CDC”), as of July 4, 2020, there have been

2

Available at: https://www.whitehouse.gov/presidential-actions/proclamation-declaringnational-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/ (last visited July
5, 2020).
5

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 6 of 29 PageID #: 6

Appx30

2,789,678 total confirmed cases of COVID-19 in the United States, and 129,305 deaths. Cases,
Date & Surveillance: Cases in the U.S. (July 4, 2020). 3
22.

As of July 4, 2020, the number of new confirmed cases reported compared to July

3, 2020, was 57,718, including 661 new deaths. Id.
23.

The number of new deaths tends to lag by two weeks or more behind the number

of new COVID cases.
24.

COVID-19 is a serious, debilitating, and sometimes deadly disease. Although it is

often compared to influenza, the overall case fatality rate is 5-35 times the fatality rate associated
with influenza infection. And unlike influenza, overall, some 20% of cases will have more severe
disease requiring medical intervention and support.
25.

There is currently no vaccine or known cure for COVID-19.

26.

The virus enters the body when someone inhales respiratory droplets containing

SARS-CoV-2, or when these droplets enter via the eyes. The coronavirus then enters cells in the
nose and throat where it invades them by latching onto a receptor at the cell surface. It then
proliferates by using the invaded cell’s own machinery. From there, the virus can spread from the
nose and throat to the lungs, where the virus—and the body’s immune response—can disrupt the
flow of oxygen into the blood, causing coughing and shortness of breath. SARS-CoV-2 can invade
many other organs in the body with a wide range of effects: seizures and strokes in the brain; blood
clots and cardiac inflammation in the vessels and heart; and liver and kidney damage. 4

3

Available at: https://www.cdc.gov/coronavirus/2019-ncov/cases-updates/cases-inus.html (last visited July 5, 2020).
4

Wadman, Couzin-Frankel, Kaiser, Matacic, How does coronavirus kill? Clinicians
trace a ferocious rampage through the body, from brain to toes, Science, April 17, 2020.
6

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 7 of 29 PageID #: 7

Appx31

27.

The course of illness in any particular person is unpredictable. Some individuals

with COVID-19 may have no symptoms or only mild symptoms, while others may develop severe
illness.
28.

The “mild” symptoms for COVID-19 are fever, chills, cough, shortness of breath,

fatigue, muscle or body aches, headache, new loss of taste or smell, sore throat, congestion or
runny nose, nausea or vomiting, and diarrhea. Many COVID-19 infections resolve within a few
weeks. However, a subset of individuals has enduring symptoms that last months. Many of these
individuals are young and previously healthy. 5
29.

Once contracted, COVID-19 can cause severe damage to lung tissue, including a

permanent loss of respiratory capacity.
30.

It can also permanently damage tissues in other vital organs, as well, such as the

heart, central nervous system, and liver.
31.

There are multiple ways in which COVID-19 can be deadly. Among patients who

have more serious disease, some 30% will progress to Acute Respiratory Distress Syndrome
(ARDS), a condition in which oxygen levels in the blood and blood pressure falls dramatically.

Available at: https://www.sciencemag.org/news/2020/04/how-does-coronavirus-kill-clinicianstrace-ferocious-rampage-through-body-brain-toes. (last visited July 6, 2020).
5

Symptoms of Coronavirus, Centers for Disease Control and Prevention, (noting “This
list does not include all possible symptoms.”) https://www.cdc.gov/coronavirus/2019ncov/symptoms-testing/symptoms.html (last visited July 6, 2020); Ed Young, COVID-19 can
last for several months, The Atlantic, June 4, 2020 Available at:
https://www.theatlantic.com/health/archive/2020/06/covid-19-coronavirus-longterm-symptomsmonths/612679/ (last visited July 6, 2020).
7

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 8 of 29 PageID #: 8

Appx32

ARDS has a 30% mortality rate overall, higher in those with other health conditions. Some 13%
of these patients will require mechanical ventilation. 6
32.

COVID-19 can also cause heart damage, blood clots, and constriction of blood

vessels, all of which can play a role in causing death. Kidney failure can also be involved in
COVID-19 mortality.
33.

Even when it does not kill, COVID-19 can severely damage lung tissue, which

requires an extensive period of rehabilitation, and in some cases, cause permanent loss of breathing
capacity. COVID-19 may also target the heart, causing a medical condition called myocarditis, or
inflammation of the heart muscle. Myocarditis can reduce the heart’s ability to pump.
34.

An exaggerated response of the immune system called a “cytokine storm” can come

from a COVID-19 infection. When that occurs, a flood of inflammatory signaling molecules are
unleashed onto the body. These molecules cause blood vessels to become leaky, resulting in a drop
in blood pressure. Blood clots become more likely to form and obstruct vessels. Organs may not
get the oxygen they need to function. This is a complication of grave concern. 7
35.

Age is a critical risk factor for the severe illness and potential fatality associated

with COVID-19. There are multiple estimates of the ratio between all known cases and known

6

Sinha, Matthay & Calfee, Is a “cytokine storm” relevant to COVID-19?, JAMA
Internal Medicine, June 30, 2020. Available at:
https://jamanetwork.com/journals/jamainternalmedicine/fullarticle/2767939 (last visited July 6,
2020).
7
Id.
8

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 9 of 29 PageID #: 9

Appx33

deaths (the “case-fatality ratio”) for COVID-19 but risk for severe illness and mortality rises
steeply above 60-70 years of age. 8
36.

A number of underlying conditions, other than age, create higher risk and influence

the course of symptoms and mortality rate. For example, people with type 2 diabetes are nearly 4
times more likely to develop serious disease or die from COVID-19. 9 Heart disease, COPD,
hypertension, and cancer are all risk factors for ICU admission, ventilation, or death. 10
37.

The COVID-19 mortality rate is twelve times higher among those with underlying

conditions. Specifically, 19.5% of people with COVID-19 who had underlying health conditions
died as compared to 1.6% of those without underlying conditions. 11
38.

Epidemiologists have collected additional demographic data on populations of

COVID sufferers. Individuals with obesity are about twice as likely to be hospitalized with

8

Older Adults, Centers for Disease Control and Prevention, updated June 25, 2020.
Available at: https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/olderadults.html (last visited July 6, 2020).
9

Zheng Z, Peng F, Xu B, et al. Risk factors of critical & mortal COVID-19 cases: A
systematic literature review and meta-analysis [published online ahead of print, 2020 Apr 23]. J
Infect. 2020;S0163-4453(20)30234-6. doi:10.1016/j.jinf.2020.04.021
10

Guan WJ, Liang WH, Zhao Y, et al. Comorbidity and its impact on 1590 patients with
COVID-19 in China: a nationwide analysis. Eur Respir J. 2020;55(5):2000547. Published 2020
May 14. doi:10.1183/13993003.00547-2020.
11

Stokes EK, Zambrano LD, Anderson KN, et al. Coronavirus Disease 2019 Case
Surveillance – United States, January 22-May 30, 2020, MMWR Morb Mortal Wkly Rep
2020;69:759-765. DOI: http://dx.doi.org/10.15585/mmwr.mm6924e2. Available at:
https://www.cdc.gov/mmwr/volumes/69/wr/mm6924e2.htm?s_cid=mm6924e2_w#T1_down
(last visited July 6, 2020).
9

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 10 of 29 PageID #: 10

Appx34

COVID-19. Younger patients with obesity are more likely to require hospital admission and ICU
care when infected than their non-obese counterparts. 12
39.

To be classified as a confirmed case of COVID-19, an individual must meet

confirmatory laboratory evidence. 13 A viral test identifies people with current SARS-CoV-2
infection. Additionally, antibody tests can be used to identify people with a previous viral
infection.
40.

To be determined a confirmed case, an individual must have undergone diagnostic

testing, which is often limited in availability.
41.

If diagnostic testing is limited, either by availability or by choice, the number of

actual infected individuals may greatly exceed the number of reported confirmed cases.
42.

The Indiana State Department of Health confirmed its first case of COVID-19 on

March 6, 2020 and recorded its first death due to the virus on March 16.

12

Petrilli Christopher M, Jones Simon,
A. Yang Jie, Rajagopalan Harish, O’Donnell Luke, Chernyak Yelena et al. Factors associated
with hospital admission and critical illness among 5279 people with coronavirus disease 2019 in
New York City: prospective cohort study BMJ 2020; 369 :m1966; Jennifer Lighter, Michael
Phillips, Sarah Hochman, Stephanie Sterling, Diane Johnson, Fritz Francois, Anna Stachel,
Obesity in Patients Younger Than 60 Years Is a Risk Factor for COVID-19 Hospital
Admission, Clinical Infectious Diseases, , ciaa415, https://doi.org/10.1093/cid/ciaa415; Kass
DA, Duggal P, Cingolani O. Obesity could shift severe COVID-19 disease to younger
ages. Lancet. 2020;395(10236):1544-1545. doi:10.1016/S0140-6736(20)31024-2
13

Coronavirus Disease 2019 (COVID-19) 2020 Interim Case Definition, approved April
5, 2020, Centers for Disease Control and Prevention.
https://wwwn.cdc.gov/nndss/conditions/coronavirus-disease-2019-covid-19/casedefinition/2020/ (Last visited July 6, 2020)
10

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 11 of 29 PageID #: 11

Appx35

43.

Children, while initially thought to be safe from effects of the virus, are now

recognized as being susceptible to multisystem inflammatory syndrome (MIS-C) associated with
COVID-19.
44.

On May 18, 2020, Indiana confirmed its first case of MIS-C in a child.

45.

As of July 5, 2020, the Indiana State Department of Health (ISDU) announced that

522 additional Indiana residents had been diagnosed with COVID-19 from the previous day,
bringing to 47,432 the total number of Indiana residents known to have the novel coronavirus. On
July 6, 2020, the ISDU reported 596 additional state residents diagnosed with COVID-19 over the
previous day’s count, bringing the state total to 48,008. 14 This represents a 14% increase over the
number of cases added the previous day.
46.

This number represents a jump in the State of Indiana of almost 11,000 new cases

reported since June 5, 2020. Compare Health Department Updates Statewide COVID-19 Case
Counts, June 5, 2020, 15 with Health Department Updates Statewide COVID-19 Case Counts, July
4, 2020. 16
47.

As of July 4, 2020, the ISDU reported that a total of 2,494 Indiana residents were

confirmed to have died from COVID-19, and that an additional 193 probable deaths had been
reported based on clinical diagnoses in patients for whom no positive test was on record.

14

Health Department updates statewide COVID-19 case counts, Indiana State
Department of Health, IN.gov. Available at: https://calendar.in.gov/site/isdh/event/healthdepartment-updates-statewide-covid-19-case-counts-65/ (last visited July 6, 2020).
15

Available at: https://calendar.in.gov/site/isdh/event/health-department-updatesstatewide-covid-19-case-counts-36/ (last visited July 5, 2020).
16

Available at: https://calendar.in.gov/site/isdh/event/health-department-updatesstatewide-covid-19-case-counts-64/ (last visited July 5, 2020).
11

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 12 of 29 PageID #: 12

Appx36

48.

On July 1, 2020, Indiana Governor Eric Holcomb renewed the COVID-19 public

health emergency to extend from July 4 (the then-current expiration date) to August 3, 2020,
“unless further renewed.”

Executive Order 20-34, for: Fourth Renewal of Public Health

Emergency Declaration for the COVID-19 Outbreak, ¶ 2, State of Indiana Executive
Department. 17
49.

COVID-19 cases continue to rise in the United States. Just in the past week, rates

in some states and counties that had previously seen little disease have risen dramatically.
50.

For example, COVID-19 has continued to spread in Arkansas. In the last month,

the number of cases has almost tripled (5,644 cases reported on May 21st; 15,142 cases reported
June 21st). In response to the climbing cases, on June 18, 2020, the Governor extended the Public
Health Emergency Order for another forty-five days. Pulaski County, which includes Little Rock,
has one of the highest number of cases in Arkansas and reported 1,499 positive cases and 52 deaths
from COVID-19 as of June 21, 2020.
IV.

COVID-19 is highly transmissible.
51.

COVID-19 passes from person to person primarily through respiratory droplets.

This can happen whenever a person expels droplets into the air, and increases when an infected
individual speaks, shouts, sings, coughs, or sneezes.
52.

COVID-19 can survive on hard surfaces for hours to days. It can live for 72 hours

on plastic and metal, 48 hours on stainless steel, and 24 hours on cardboard. 18

17

Available at: https://www.in.gov/gov/files/Executive%20Order%202034%20Extention%20of%20the%20Public%20Health%20Emergency.pdf (last visited, July 5,
2020.)
18

Neeltje van Doremalen et al., “Aerosol and Surface Stability of SARS-CoV-2 as
Compared with SARS-CoV-1,” letter, New England Journal of Medicine (Massachusetts
12

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 13 of 29 PageID #: 13

Appx37

53.

New information indicates that COVID-19 may also be transmissible through

aerosolized fecal contact.
54.

The longer the time a person spends in an environment that harbors the virus increases

his or her chance of contracting it. While a very short period of time may be enough for someone to
contract it if the viral load is heavy, a longer period of time in the presence of even a small amount of
virus increases the chance of infection.
55.

For contact tracing purposes to determine a high likelihood of exposure, “close contact”

is defined by the CDC as “any individual who was within 6 feet for more than 15 minutes of an infected
person starting from 2 days before illness onset (or, for asymptomatic patients, 2 days prior to a positive
specimen collection) until the time the patient is isolated.19
56.

The most dangerous transmission scenarios are indoor environments with poor

ventilation in which people are close together. Research suggests that speech droplets which carry the
virus that causes COVID-19 can linger in the air in closed environments for 8 to 14 minutes.20 A study
currently under review found that among 1,245 cases during the COVID-19 outbreak in China, there

Medical Society, March 17, 2020), Available at:
https://www.nejm.org/doi/10.1056/NEJMc2004973 (last visited July 6, 2020). See also,
COVID-19 basics: symptoms, spread and other essential information about the new coronavirus
and COVID-19, Harvard Health Publishing, Harvard Medical School, updated July 2, 2020. (last
visited July 6, 2020).
19

Contact tracing for COVID-19, Centers for Disease Control and Prevention, Updated
June 17, 2020. Available at: https://www.cdc.gov/coronavirus/2019-ncov/php/contacttracing/contact-tracing-plan/contact-tracing.html (last visited July 6, 2020).
20

Valentyn Stadnytskyi, Christina E. Bax, Adriaan Bax, Philip Anfinrud. The airborne
lifetime of small speech droplets and their potential importance in SARS-CoV-2 transmission.
PNAS. May 2020, 202006874; DOI: 10.1073/pnas.2006874117
13

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 14 of 29 PageID #: 14

Appx38

was only one case of COVID-19 transmission that was in an outdoor environment, highlighting the
overwhelming predominance of COVID-19 transmission in indoor environments.21
57.

Wearing face masks helps to mitigate transmission of SARS-CoV-2, but does not

guarantee full protection. Even surgical masks, for example, block 75% of airborne particles, but not
all. 22 This is why medical personnel wear full coverage Personal Protective Equipment (PPE).
58.

When wearing non-N95 face masks, social distancing must be maintained to avoid

acquiring the virus. The two measures must be taken in combination – wearing a mask and social
distancing.
59.

Poorly ventilated spaces increase the likelihood of COVID-19 transmission. Some

airflow studies have found that respiratory droplets can travel between people even from 10 feet away,
suggesting that even the social distancing recommendation of 6 feet may be insufficient depending on
ventilation. 23 The Indiana State Department of Health warns that droplets expelled when a person

21

Hua Qian, Te Miao, Li Liu et al. Indoor transmission of SARS-CoV-2, medRxiv. April
2, 2020. Available at: https://doi.org/10.1101/2020.04.04.20053058 (last visited July 6, 2020).
22

Amy Mueller and Loretta Fernandez, Assessment of fabric masks as alternatives to
standard Masks in terms of particle filtration efficiency, medRxiv. April 17, 2020. Available at:
https://www.medrxiv.org/content/10.1101/2020.04.17.20069567v2.full.pdf (last visited July 6,
2020).
23

Feng Y, Marchal T, Sperry T, Yi H. Influence of wind and relative humidity on the
social distancing effectiveness to prevent COVID-19 airborne transmission: A numerical study
[published online ahead of print, 2020 May 18]. J Aerosol Sci. 2020;147:105585. Available at:
www.sciencedirect.com/science/article/pii/S0021850220300744?via%3Dihub (last visited July
6, 2020).
14

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 15 of 29 PageID #: 15

Appx39

infected with COVID-19 speaks, coughs, sneezes or speaks can travel up to 25 feet.24 Airflow direction
may also influence transmission.25
60.

Wearing a mask helps keep the person wearing it from spreading disease to another

(“source control”) but it does not confer much protection on the person wearing it unless it is an N95
mask.26
61.

N95 masks with vents, however, expel air so the wearer is protected but can still transmit

the virus.
62.

Because the virus can also enter one’s body through his or her eye membranes, no mask

confers complete protection.
63.

The onset and duration of viral shedding, which propagates spread, and the period

of infectiousness for COVID-19, are not well understood, and therefore, cannot be easily
prevented. Epidemiologists report that individuals who are contagious do not necessarily show
symptoms, either because they are asymptomatic (i.e. has a mild enough case of the virus that they
are unaware they have it) or because they are pre-symptomatic. A pre-symptomatic person will
go on to develop symptoms but can be infectious for up to 3 days before symptoms first develop.

24

State encourages Hoosiers to wear masks to help curb COVID-19, Indiana State
Department of Health, IN.gov. July 1, 2020. Available at:
https://calendar.in.gov/site/isdh/event/state-encourages-hoosiers-to-wear-masks-to-help-curbcovid-19/ (last visited July 6, 2020).
25

Lu J, Gu J, Li K, et al. COVID-19 Outbreak Associated with Air Conditioning in
Restaurant, Guangzhou, China, 2020. Emerging Infectious Diseases. 2020;26(7):1628-1631.
Available at: https://wwwnc.cdc.gov/eid/article/26/7/20-0764_article (last visited July 6, 2020).
26

Considerations for wearing cloth face coverings, Centers for Disease Control and
Prevention, updated June 28, 2020. Available at: https://www.cdc.gov/coronavirus/2019ncov/prevent-getting-sick/cloth-face-cover-guidance.html (last visited July 6, 2020).
15

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 16 of 29 PageID #: 16

Appx40

64.

The combined effect of asymptomatic and pre-symptomatic carriers is thought to

account for a substantial portion of SARS-CoV-2 transmission, with some estimates putting it at
between 50 to 80% of all transmission. 27
65.

Because asymptomatic and pre-symptomatic carriers are infectious at early stages

of infection, screening measures that do not include testing, such as restricting access to buildings
if someone has a fever or symptoms, do little to prevent the introduction of the virus into any
environment.
66.

The State of Missouri is the only jurisdiction in the United States that has carried

out an execution since the President declared COVID-19 a national emergency on March 13, 2020.
The Missouri prison where that execution occurred on May 19, 2020, experienced an outbreak of
21 COVID-19 infections in the weeks after the execution. 28
67.

Upon information and belief, the COVID-19 screening measures employed by BOP

at FCC Terre Haute, including USP Terre Haute, have been and continue to be inadequate.
Widespread testing of staff and inmates has not taken place at the correctional complex, and
asymptomatic individuals are not tested. In March 2020, the BOP employed a screening tool for
visitors, volunteers and contractors seeking entrance to a prison that asked the individual to selfreport if she had fever or chills, cough, or shortness of breath, and required a temperature check.

27

Gandhi, Yokoe, & Havlir, Asymptomatic transmission, the Achilles’ heel of current
strategies to control COVID-19, N Engl J Med 2020; 382:2158-2160. May 28, 2020. Available
at: https://www.nejm.org/doi/full/10.1056/NEJMe2009758?query=recirc_curatedRelated_article
(last visited July 6, 2020).
28

Bobby Radford, COVID-19 Outbreak Confirmed at Prison in Bonne Terre, Daily
Journal Online (June 19, 2020), https://dailyjournalonline.com/news/local/govt-andpolitics/covid-19-outbreak-confirmed-at-prison-in-bonne-terre/article_c7222072-e242-513d871a-c63a9c30cfbc.html (last visited July 7, 2020)
16

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 17 of 29 PageID #: 17

Appx41

The form also asked if the person had traveled within the previous 14 days to China, Iran, South
Korea, Italy, or Japan, or had had close contact with anyone “diagnosed” with the COVID-19
illness with the last 14 days. According to the BOP website, this remains the screening tool being
used for visitors to BOP prisons. See BOP Visitor/Volunteer/Contractor COVID-19 Screening
Tool 29 and BOP Implementing Modified Operations. 30
68.

The BOP also employs an inadequate staff screening tool that requires a

temperature check, and an employee self-report as to whether he or she has a “new on-set cough,”
“new onset trouble speaking because of needing to take a breath,” or “stuffy/runny nose.” With a
temperature above a certain designated point, the staff member is to be denied access. But with a
yes answer to the other screening questions, the staff member is only instructed to “contact the
medical officer on call for the Institution to provide Disposition.” See Coronavirus Disease 2019
(COVID-19) Staff Screening Tool, March 27, 2020. 31
69.

Based on data collected in a study conducted by the Indiana University Richard M.

Fairbanks School of Public Health, researchers estimated that 43% of all Indiana residents who
were currently infected showed no symptoms. IUPUI, ISDH release findings from 2nd phase of
COVID-19 testing in Indiana, June 17, 2020. 32

29

Available at: https://www.bop.gov/coronavirus/docs/covid19_screening_tool.pdf (last
visited July 5, 2020).
30

Available at: https://www.bop.gov/coronavirus/covid19_status.jsp (last visited July 5,

2020).
31

Available at:
https://www.bop.gov/coronavirus/docs/covid19_staff_screening_tool_v2.8_20200327.pdf (last
visited July 5, 2020.)
32

Available at: https://calendar.in.gov/site/isdh/event/iupui-isdh-release-findings-from2nd-phase-of-covid-19-testing-in-indiana/ (last visited July 5, 2020).
17

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 18 of 29 PageID #: 18

Appx42

70.

This number strongly suggests that a large percentage of those people who would

successively pass the BOP’s screening test and be admitted in its prisons would nevertheless have
an active case of COVID-19.
71.

Because individuals without symptoms transmit COVID-19, until a vaccine is

developed, the only effective screening measure is regular, rapid-result COVID testing for
everyone entering the facility. 33
V.

In Order to Travel to Attend Mr. Lee’s Execution, Plaintiffs Will Be Exposed to
Considerable Risk of contracting COVID-19.
72.

In order to participate as witnesses to Mr. Lee’s execution, Plaintiffs will have to

undertake long distance interstate travel to and from Terre Haute, Indiana, where the execution
will take place. Because the execution is scheduled for the afternoon of Monday, July 13, 2020,
Plaintiffs will have to spend two nights in hotels. Plaintiffs Veillette and Gurel will have to travel
by air and will be riding in a small van provided by the Government, in which their ability to
maintain social distancing—from the driver, from each other, and from anyone else in the van—
will not be feasible. Plaintiffs Veillette and Gurel have been practicing social distancing during
the pandemic, both generally and from each other as well. Neither has been with Plaintiff Peterson
during the pandemic. Plaintiff Peterson will be driven to Terre Haute by her son who has multiple
sclerosis.

33

Gandhi, Yokoe, & Havlir, supra at n.27.
18

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 19 of 29 PageID #: 19

Appx43

73.

Travel has the potential to cause new outbreaks across the country. The outbreak of

COVID-19 in New York is estimated to be responsible for 60-65% of cases nationwide, and travel from
Seattle spread the virus to at least 12 different states.34
74.

The CDC has published “Considerations for Travelers – Coronavirus in the US,” which

cautions “staying home is the best way to protect yourself and others from getting sick.” (emphasis in
original). The list of considerations includes the following: “(a) You can get infected while traveling.
(b) Even if you don’t have symptoms, you can spread COVID-19 to others while traveling. (c) Being
within 6 feet of others increases your changes of getting infected and infecting others. (d) Individuals
who have an increased risk of severe illness from COVID-19 should limit their travel. (e) If you get
infected while traveling you can spread COVID-19 to loved ones when you return, even if you don’t
have symptoms.”35
75.

Every stage and mode of travel involves significant risks of exposure for the traveler.

According to the CDC, “airports, bus stations, train stations, and rest stops are all places travelers can
be exposed to the virus in the air and on surfaces. These are also places where it can be hard to social
distance (keep 6 feet apart from other people).”36

34

Benedict Carey and James Glanz, Travel from New York City Seeded Wave of U.S.
Outbreaks, The New York Times, May 7, 2020. Available at:
https://www.nytimes.com/2020/05/07/us/new-york-city-coronavirus-outbreak.html (last visited
July 6, 2020).
35

Considerations for Travelers – Coronavirus in the US, Centers for Disease Control and
Prevention, Updated June 28, 2020. Available at: https://www.cdc.gov/coronavirus/2019ncov/travelers/travel-in-the-us.html (last visited July 6, 2020).
36

Id.
19

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 20 of 29 PageID #: 20

Appx44

76.

Travel by car involves “[m]aking stops along the way for gas, food, or bathroom breaks

[which] can put you and your traveling companions in close contact with other people and surfaces.” 37
77.

All airports pose a risk of COVID-19 due to the need to stand in security lines, as well

as exposure to high contact surfaces, close proximity to others, and spending extended periods of time
in an indoor environment.38
78.

The amount of time spent in airports in cities with higher cases counts increases one’s

risk of exposure to an infected person or surface.
79.

This means traveling from, laying over, and arriving into cities with higher case counts

increases one’s risk of exposure, as well.
80.

Air travel itself, separate from the hazards of being in airports, can lead to numerous

risks of transmission.
81.

The risk of transmission inside an airplane depends in small part on the number of

individuals on a plane, and the amount of space left between them, but, according to at least one airline
executives, social distancing is largely impossible on planes.39

37

Id.

38

Id.

39

Where some airlines have promised to block middle seats as a safety precaution, Josh
Earnest, United’s chief communications officer, said on July 1 that blocking middle seats is just
a public relations strategy. “When you’re onboard the aircraft, if you’re sitting in the aisle, and
the middle seat is empty, the person across the aisle is within six feet from you, the person at the
window is within six feet of you, the people in the row in front of you are within six feet of you,
the people in the row behind you are within 6 feet of you.” Chris Fuhrmeister, Delta reiterates
middle-seat policy after criticism from United, Atlanta Business Chronicle, July 1, 2020.
Available at: https://www.bizjournals.com/atlanta/news/2020/07/01/delta-blocking-middle-seatunited-criticism.html (last visited July 5, 2020). In other words, there is no way to social
distance on commercial airlines.
20

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 21 of 29 PageID #: 21

Appx45

82.

Universal mask wearing, especially on long flights during which passengers must

remove their masks to eat or drink, is largely unenforceable. Air circulation on planes may not be
uniform or subject to the control of an individual passenger. A fellow traveler, for example, may choose
to increase the air flow from his personal vent or point it away from himself, towards another passenger.
83.

Taking cabs and other car services leads to close contact with the driver, who may

spread the virus. A study from Zhuhai, China found that sharing a car with someone infected
significantly increased the risk of that person then becoming infected. 40 In addition, if cab owners
do not wipe down the interior after each passenger, there may be residual risk of infection from
the prior trip.
84.

The risk of infection from using public restrooms varies, depending on how often

and how thoroughly they are cleaned. However, the distance between bathroom stalls and sinks
may not provide adequate distancing, especially in an environment that may seem private enough
for one to remove his or her mask. And, as noted earlier, new information indicates that COVID19 may also be transmissible through aerosolized fecal contact.
85.

The risks from staying in a hotel includes the virus remaining on surfaces if rooms

were not properly cleaned. This may occur if staff who clean the rooms are infected but are not
taking proper precautions (wearing a mask, washing their hands, etc.) or are engaging in any
improper cleaning practices (using cleaners that are too weak, for instance). 41

40

Jian Wu et al., “Household Transmission of SARS-CoV-2, Zhuhai, China, 2020,”
Clinical Infectious Diseases: An Official Publication of the Infectious Diseases Society of
America, May 11, 2020, Available at: https://doi.org/10.1093/cid/ciaa557 (last visited July 6,
2020).
41

Maggie O’Neill, Is it safe to stay in a hotel during COVID-19? What you need to know
before you plan a vacation, Health, May 22, 2020. Available at:
https://www.health.com/condition/infectious-diseases/coronavirus/is-it-safe-to-stay-in-a-hotel21

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 22 of 29 PageID #: 22

Appx46

86.

During check-in, as well, it may be difficult to remain 6 feet or more from others,

including guests and staff. It may also be difficult to avoid elevators which present a risk of
infection, as they are a close, confined space. Individuals who are infected may touch the buttons
or join others in the elevator, thus exposing others to the virus.
87.

It is presumably for these reasons that federal government agencies, including the

DOJ and the BOP suspended most official travel. See Federal Bureau of Prisons COVID-19
Action Plan: Agency-wide Modified Operations, March 13, 2020; 42 Memorandum from Lee
Lofthus, Assistant Attorney General for Administration to Heads of Department Components and
United States Attorneys, U.S. Department of Justice, Justice Management Division, May 18,
2020. 43 See also, Federal Judiciary COVID-19 Recovery Guidelines, at p. 9, April 24, 2020

during-covid-19 (last visited July 6, 2020). See also Coronavirus Disease 2019 (COVID-19)
Personal and Social Activities, Centers for Disease Control and Prevention, updated June 15,
2020. Available at: https://www.cdc.gov/coronavirus/2019-ncov/daily-life-coping/personalsocial-activities.html#hotel (last visited July 6, 2020).
42

Available at: https://www.bop.gov/resources/news/20200313_covid-19.jsp (last
visited July 5, 2020).
43

Available at: https://www.justice.gov/doj/page/file/1284406/download (last visited
July 5, 2020). In this memorandum, it was announced that “[o]nly essential travel is permissible
in Phase 1. Staff traveling to areas that still have significant levels of COVID-19 cases must
follow the CDC quarantine guidelines before returning to the office. … [T]ravel to significant
outbreak areas should be considered only in light of the state/locality operating announcements
and, as noted above, travelers are subject to the CDC post-travel isolation guidelines. As a
general matter, routine travel for discretionary training, events, conferences, speeches and the
like should continue to be postponed in Phase 1 and Phase 2 (considering both departure points
and destinations). … In July we will assess whether we can more broadly return to in-person
even scheduling and travel.” (emphasis added.)
In this same memorandum, DOJ “recognizes that some employees are in vulnerable
populations or may be at higher risk for severe illness, or are caring for family members or others
in these groups. . . . Those at higher risk for severe illness include individuals who are over 65
years of age and people of all ages with underlying medical conditions, particularly if not well
controlled, including those who suffer from chronic lung disease, moderate to severe asthma,
22

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 23 of 29 PageID #: 23

Appx47

(requiring employees to maximize physical distance from others; instructing all vulnerable
individuals so continue teleworking, including employees who live with or provide care for
vulnerable individuals to “reduce chances that they could carry the virus to these vulnerable
individuals,” and notably, “MINIMIZE PERSONAL TRAVEL (i.e., leisure travel, non-business
related) and adhere to CDC guidelines and local state orders regarding travel destination and
potential for self-isolation upon return.” 44
VI.

Attending Mr. Lee’s Execution Will Place Plaintiffs at Great Risk of Contracting
COVID-19.
88.

Plaintiff Earlene Branch Peterson is 81 years old and has congestive heart failure.

She lives in Hector, Arkansas, at a distance of roughly 500 miles from FCC Terre Haute.
89.

Plaintiff Kimma Gurel is over 60 years old and has underlying health conditions

that put her at increased risk. She lives in Spokane Valley, Washington, a distance of more than
2,000 miles from FCC Terre Haute.
90.

Plaintiff Monica Veillette has asthma. She lives in Deer Park, Washington, a

distance of roughly 2,000 miles from FCC Terre Haute.
91.

As noted above, the greatest risks for transmission of COVID-19 result from

spending time in an enclosed indoor space without the ability to maintain social distancing and
where one is in contact with someone who has the virus. Wearing masks does not protect the

serious heart conditions, immune disorders, obesity, diabetes, or chronic kidney or liver disease
should work with supervisors to continue telework.” These employees are to be afforded
workplace flexibilities to “help reduce the chances that they could carry the virus to these
vulnerable individuals.”
44

Available at: https://www.fedbar.org/wp-content/uploads/2020/04/Federal-JudiciaryCOVID-19-Recovery-Guidelines.pdf (last visited July 5, 2020).

23

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 24 of 29 PageID #: 24

Appx48

wearer, and one’s eye membranes are an entry point for the virus. Sharing toilet facilities creates
additional risk, as fecal matter may be aerosolized when one flushes a toilet, and surfaces within a
bathroom may become contaminated.
92.

For the Plaintiffs to witness Mr. Lee’s execution, they would of necessity be in

contact with many other people in close proximity to them.
93.

Upon information and belief, Plaintiffs will not be permitted to come to the prison

grounds on their own but will be escorted there by BOP personnel.
94.

Upon information and belief, Plaintiffs will be brought into the main prison and

kept there for some period of time before being escorted to the execution facility.
95.

Prisons are known to have poor infection control mechanisms available, and are

often hotspots for infectious diseases, including SARS-CoV-2, as well as HIV, tuberculosis,
hepatitis viruses, influenza, and others. 45
96.

As with other contaminate environments, like nursing homes, to receive basic

necessities, prisoners are required to interact with numerous correctional officers daily: to receive
food, receive medication, be let outside into recreational facilities. One infected correctional
officer can spread infections between different areas of the prison.

45

Joseph A. Bick, “Infection Control in Jails and Prisons,” Clinical Infectious Diseases:
An Official Publication of the Infectious Diseases Society of America 45, no. 8 (October 15,
2007): 1047–55, https://doi.org/10.1086/521910; C. Raina MacIntyre et al., “Impact of
Tuberculosis Control Measures and Crowding on the Incidence of Tuberculous Infection in
Maryland Prisons,” Clinical Infectious Diseases 24, no. 6 (June 1, 1997): 1060–67,
https://doi.org/10.1086/513632; Masoud Dara et al., “Tuberculosis Control in Prisons: Current
Situation and Research Gaps,” International Journal of Infectious Diseases, Special Issue:
Commemorating World Tuberculosis Day 2015, 32 (March 1, 2015): 111–17,
https://doi.org/10.1016/j.ijid.2014.12.029.
24

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 25 of 29 PageID #: 25

Appx49

97.

As noted above, the screening of staff conducted at FCC Terre Haute, including

USP Terre Haute, does not provide adequate measures to detect infected staff members or other
personnel with whom Plaintiffs might have to interact.
98.

It is evident the screening measures at FCC Terre Haute, including USP Terre

Haute, have permitted the virus to gain entry there because prisoners have contracted the virus,
and at least one inmate has died of COVID-19. 46
99.

The Government’s plan for the execution involves “activation of the execution

team, which consists of 40 BOP staff members,” who normally conduct a “wide range of
correctional and administrative positions” and who will spend several days before the execution
practicing and preparing for the execution. 47
100.

In addition to the 40 members of the execution team, the BOP protocol involves

approximately 200 FCC Terre Haute staff who will perform security and support for the
execution. 48 These staff are “pulled away from their normal duties,” including, for example,
preparation of prisoners’ meals. 49 The plans for the execution also involve specialized BOP teams
with 50 individuals traveling to FCC Terre Haute from other prisons. 50 Approximately 300 BOP

46

COVID-19 Cases, BOP.gov, July 5, 2020. Available at:
https://www.bop.gov/coronavirus/ (July 6, 2020).
47

See In re Matter of Federal Bureau of Prisons’ Execution Protocol Cases, No. 1:19mc-145-TSC, Declaration of Rick Winter (“Winter Dec.”), ECF No. 54 (D.D.C. No. 21, 2019),
¶5.
48

Id. at ¶8.

49

Id.

50

Id. at ¶10.

25

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 26 of 29 PageID #: 26

Appx50

and FCC Terre Haute staff will be supplemented by additional staff from various federal, state,
and local law enforcement agencies to provide additional security. 51 Many of these individuals
will be traveling by air and staying in local hotels. 52
101.

The execution protocol requires the Director of the BOP to select eight witnesses

to the execution, including members of the victim’s family. 53 Plaintiffs will thus presumably be in
the company of any other individuals selected, who will likely also have been involved in interstate
transit to attend the execution, and who will not have been in quarantine prior to being in close
quarters with Plaintiffs.
102.

The execution “house,” which consists of several small, cramped rooms, is located

on the FCC Terre Haute grounds. 54 It is a small, single story building, like a small home. 55 For the
execution, witnesses, including the Plaintiffs, are shuttled in a small van to the facility from the
main correctional complex, to clear a security checkpoint. 56 They are then escorted by BOP
personnel through separate entrances to four small, cramped viewing rooms for each of the various
groups of witnesses, including a room for media, a room for Government witnesses, and a room
for the victims’ family members—to witness the execution. 57

51

Id. at ¶7.

52

Id. at ¶5.

53

See Exh. A, Ch. 1, III.G.1.c.(1), 10-11.

54

See Motion for Preliminary Injunction, Hartkemeyer v. Barr, et al., No. 2:20-cv-0036JMS-MJD (S.D. Ind. July 2, 2020), Exh. D, Declaration of Timothy Floyd, ¶¶ 4-5.
55

Id.

56

Id. at ¶¶ 4, 9.

57

Id. at ¶9.
26

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 27 of 29 PageID #: 27

Appx51

103.

At each stage of these proceedings, which are likely to last several hours, Plaintiffs

will be in the company of Defendants’ staff and other witnesses in circumstances during which
social distancing is not possible.
104.

At each stage of these proceedings, which are likely to last several hours, Plaintiffs

will be captive participants, unable to walk away if their escorts, other personnel, or other witnesses
remove their masks, and/or potentially exposed to COVID-19 due to its being on hard surfaces.
105.

At each stage of these proceedings and their travel to participate in them, Plaintiffs

face grim risks of exposure to COVID-19, a disease which for these vulnerable Plaintiffs, could
prove lethal.
Cause of Action
Agency Action in Violation of 5 U.S.C. § 706(2)(A)
106.

Plaintiffs reallege and incorporate by references all of the preceding paragraphs of

the Complaint as if they were set forth fully below.
107.

The APA states that a reviewing court “shall … hold unlawful and set aside agency

action” that is found to be “arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.SC. §706(2)(A).
108.

The agency action here — the setting of Mr. Lee’s execution date for July 13, 2020

— is both (1) arbitrary and capricious; and (2) “not in accordance with law.”
109.

Defendants acted arbitrarily and capriciously because, in setting Mr. Lee’s

execution date, they failed to consider important issues, including the effect of COVID-19 on

27

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 28 of 29 PageID #: 28

Appx52

Plaintiffs’ rights to attend the execution. As alleged above, Defendants have directly impaired
such rights because Plaintiffs can attend the execution only if they put their own lives at risk.
110.

Defendants’ action is also “not in accordance with law” because it effectively

nullifies 28 U.S.C. § 26.4, which, in combination with the Protocol, states that Plaintiffs are
entitled to attend Mr. Lee’s execution. As a result of Defendants’ action, Plaintiffs’ rights to the
attend the execution have been rendered illusory.
111.

Defendants easily could have avoided the foregoing violations of the APA by

delaying the setting of Mr. Lee’s execution date until such time as the COVID 19 abates
sufficiently so as to allow for safe travel and indoor gathering or there is an effective vaccine.
However, without good cause, Defendants have refused to change Mr. Lee’s execution date.
112.

An actual controversy exists between the parties regarding Defendants’ action and,

pursuant to 28 U.S.C. § 2201 and Fed. R. Civ. P. 57, Plaintiffs request that the Court declare their
rights in connection with the setting of Mr. Lee’s execution date.
113.

Accordingly, the Court should hold that Defendants have acted unlawfully, in

violation of 5 U.S.C. § 706(2)(A), and it should issue a declaratory judgment setting aside
Defendants’ selection of July 13, 2020 as Mr. Lee’s execution date.
114.

In addition, the Court should enter injunctive relief, pursuant to 28 U.S.C. § 2202

and Fed. R. Civ. P. 65, barring Defendants and their agents from establishing a new execution date
until they demonstrate to the Court that Plaintiffs will not be exposed to an undue health risk by
attending Mr. Lee’s execution.
Request for Relief
WHEREFORE, Plaintiffs respectfully request that this Court enter judgment in their
favor and that the Court:
28

Case 2:20-cv-00350-JMS-DLP Document 1 Filed 07/08/20 Page 29 of 29 PageID #: 29

Appx53

a. Grant a declaratory judgment finding that carrying out Mr. Lee’s execution during a
pandemic caused by SARS-CoV-2 and national health emergency without a vaccine or
treatment available for COVID-19 infringes on and constructively prevents Plaintiffs’
exercise of their legal right to attend the execution;
b. Grant a declaratory judgment finding that the scheduling of Mr. Lee’s execution during a
national health emergency that creates substantial health risks to Plaintiffs is arbitrary and
capricious action, and set aside the warrant of execution;
c. Grant injunctive relief prohibiting the BOP from carrying out the execution until
treatment or a vaccine is available;
d. Award attorney’s fees and costs as the Court deems equitable and just; and
e. Award such other and further relief as the Court deems equitable and just.
Respectfully submitted

/s/ H. Baker Kurrus
H. Baker Kurrus, PLLC
10816 Crestdale Lane
Little Rock, AR 72212
Phone: (501) 831-0325
Email: Bkurrus@aol.com
Arkansas Bar No. 80082
Attorney for Plaintiffs

Dated: July 7, 2020

29

Case 2:20-cv-00350-JMS-DLP Document 28-1 Filed 07/10/20 Page 1 of 3 PageID #: 320

Appx54

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
EARLENE PETERSON
KIMMA GUREL
MONICA VIELLETTE
Plaintiffs,
v.
WILLIAM P. BARR, in his official
capacity as the Attorney General of the
United States; MICHAEL CARVAJAL, in
his official capacity as the Director of the
Federal Bureau of Prisons; and T.J.
WATSON, in his official capacity as
Complex Warden for Terre Haute Federal
Correctional Complex,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 2:20-cv-00350-JMS-MJD

DECLARATION OF RICK WINTER
I, Rick Winter, do hereby declare and state as follows:
1.

I am employed by the United States Department of Justice, Federal Bureau of Prisons
(“BOP”), as Regional Counsel for the BOP’s North Central Region. I have held this
position since October 2016. I have been employed by the BOP since 1994.

2.

The statements I make hereinafter are made on the basis of my review of the official files
and records of the BOP, my own personal knowledge, or on the basis of information
acquired by me through the performance of my official duties.

3.

The BOP, under the supervision of the United States Marshals Service, is responsible for
implementing federal death sentences. See 18 U.S.C. § 3596(a); 28 C.F.R. Part 26.
Currently, execution dates are in place for four inmates. Specifically, Daniel Lee’s
execution is scheduled to occur on July 13, 2020; Wesley Purkey’s execution is scheduled

1

Case 2:20-cv-00350-JMS-DLP Document 28-1 Filed 07/10/20 Page 2 of 3 PageID #: 321

Appx55

to occur on July 15, 2020; Dustin Honken’s execution is scheduled to occur on July 17,
2020; and Keith Nelson’s execution is scheduled to occur on August 28, 2020.
4.

In advance of these dates, the BOP has been, and intends to continue, making necessary
arrangements.

5.

Such arrangements include the activation of the execution team, which consists of
approximately 40 BOP staff members. These staff members, by necessity, have been
removed from their normal duties, which include a wide range of correctional and
administrative positions within the BOP.

Pursuant to the current operational plan,

cessation of normal duties occurs several days in advance of a scheduled execution, in
order to give the team time to practice and prepare for their role in an execution. In addition
to the team members, a number of BOP administrators will be present as well. They also
ceased their normal duties in the days in advance of an execution. Logistical items such as
travel, lodging and personal arrangements have already been completed for the three
execution dates in July.
6.

Also, the BOP plans to use contractors who have made themselves available and have made
necessary arrangements for personal and work related matters based on the executions
scheduled in July and August. If the current execution dates are stayed, it is likely that
both contractors will need at least one month’s notice in order to be able to reschedule.

7.

Executions will take place at the Federal Correctional Complex at Terre Haute, Indiana
(FCC Terre Haute). Accordingly, FCC Terre Haute is also mobilizing personnel in
preparation of the currently scheduled executions, and has also been coordinating with
federal, state, and local law enforcement agencies, some of who plan to send personnel to
FCC Terre Haute to help maintain security for the currently scheduled executions.

8.

Approximately 100 BOP staff will serve as institution security and support during an
2

Case 2:20-cv-00350-JMS-DLP Document 28-1 Filed 07/10/20 Page 3 of 3 PageID #: 322

Appx56

execution. With its staff pulled away from their normal duties, FCC Terre Haute will not
be able to operate under normal conditions. For example, due to expected staffing issues
and changes in security procedures, FCC Terre Haute will not be able to prepare inmate
meals in the ordinary fashion. Instead, the institution plans to prepare food in advance for
its approximately 2,500 inmates. This alteration in meal preparation comes at a greatly
increased cost to BOP.
9.

Additionally, FCC Terre Haute has made arrangements for specific needs related solely to
an execution, for example contracting for buses which will be used to transport public
demonstrators who wish to assemble.

10.

Schedules for FCC Terre Haute staff members have been created, allocating staff based on
current execution dates. For additional security and support, specialized BOP teams such
as Special Operations Response Teams (SORT) and Disturbance Control Teams (DCT)
will travel to FCC Terre Haute from other BOP institutions. These teams consists of
approximately 50 individuals. Again, logistical arrangements such as travel and lodging
have already begun for the current execution dates.

11.

Additionally, BOP has made travel and lodging arrangements for the victims’ family
members to attend the July executions.

12.

Any adjustment to the execution dates would require significant planning and coordination
such as that has been undertaken by BOP to date.

I declare, under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing is true and
correct.
Executed this 9th day of July, 2020.
IjiuZisis CuL)
Rick Winter
^
Federal Bureau of Prisons
3

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 1 of 4 PageID #: 625

Appx57

UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA

)
DALE HARTKEMEYER (AKA SEIGEN) )
)
Plaintiff,
)
)
v.
)
)
WILLIAM P. BARR, ET AL,
)
)
Defendants.
)
)

Case No. 2:20-cv-00336-JMS-DLP

DECLARATION OF RICK WINTER
I, Rick Winter, do hereby declare and state as follows:
1.

I am employed by the United States Department of Justice, Federal Bureau of Prisons
(“BOP”), as Regional Counsel for the BOP’s North Central Region. I have held this
position since October 2016. I have been employed by the BOP since 1994.

2.

The statements I make hereinafter are made on the basis of my review of the official files
and records of the BOP, my own personal knowledge, or on the basis of information
acquired by me through the performance of my official duties.

3.

The BOP, under the supervision of the United States Marshals Service, is responsible for
implementing federal death sentences. See 18 U.S.C. § 3596(a); 28 C.F.R. Part 26. The
BOP undertakes its role in accordance with the BOP Execution Protocol, see ECF No. 331, Declaration of Rick Winter (July 7, 2020), Ex. A-1, unless the Director or his designee
determines that deviation is required. Daniel Lewis Lee is a condemned inmate whose
execution is scheduled to occur on July 13, 2020, at the United States Penitentiary at Terre
Haute, Indiana (USP Terre Haute).

4.

I am aware that Earlene Branch Peterson, Kimma Gurel, and Monica Veillette have been
1

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 2 of 4 PageID #: 626

Appx58

designated as witnesses for purposes of the execution on July 13, 2020. 28 C.F.R.
§ 26.4(c)(4)(i).
5.

The Government announced the re-scheduling of Mr. Lee’s execution on June 15, 2020.
Ms. Branch Peterson, Ms. Gurel, and Ms. Veillette were informed of that date shortly after
it was publicly announced in order to begin their travel arrangements.

6.

I am aware that in the above referenced lawsuit Ms. Branch Peterson, Ms. Gurel, and Ms.
Veillette (Proposed Intervenors) seek to intervene as plaintiffs and allege that because of
their age and health conditions, and because of the number of BOP staff members and other
individuals expected to be present at the execution, they would be subject to an
unacceptably high risk of exposure to COVID-19 if they choose to attend the execution.

7.

However, despite the large number of individuals expected to be present at Mr. Lee’s
execution, Proposed Intervenors will have very limited interactions with the vast majority
of them. There are also numerous mitigation measures in place to avoid the spread of
COVID-19.

8.

The Terre Haute Federal Correction Complex (FCC Terre Haute) consists of USP Terre
Haute, as well as a Federal Correctional Institution (FCI Terre Haute) and a prison camp.
Staff are required to pass a temperature check and symptom screening daily before being
allowed on the grounds of FCC Terre Haute. All BOP staff are required to wear face
masks. FCC Terre Haute will continue its screening procedures for all individuals arriving
at the FCC.

9.

If Proposed Intervenors choose to attend Mr. Lee’s execution, they will have no interaction
with any inmates or members of the public other than possible limited interaction with the
rest of the witness group comprised of only the family members of Mr. Lee’s victims.

10.

As to their interaction with BOP employees, while the execution team consists of
2

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 3 of 4 PageID #: 627

Appx59

approximately 40 BOP staff members, the vast majority of them have assignments in areas
other than where Proposed Intervenors will be located. Similarly, while approximately 100
BOP staff members and approximately 50 members of specialized teams will have various
roles in the overall security of FCC Terre Haute, the vast majority will have duties which
will not cause them to have any interaction with Proposed Intervenors.
11.

On the day of the execution, Proposed Intervenors will be picked up by BOP staff from a
designated location off FCC Terre Haute grounds. Passengers in the vehicle will include
Proposed Intervenors and members of their immediate family. Upon being picked up, they
will be given the opportunity to utilize Personal Protective Equipment (“PPE”) in the form
of a surgical face mask, gloves, a gown, and a plastic face shield. BOP staff will be wearing
face masks. Proposed Intervenors will be escorted to FCC Terre Haute and through
security to a staging area on FCC Terre Haute property. At the staging area, they will have
access to hand sanitizer and a restroom with a sink and hand soap. The individuals at the
staging area will include Proposed Intervenors, their immediate family members, three
other witnesses from the family of Lee’s victims and approximately four BOP staff
members. The staging area allows for ample social distancing.

12.

At the appropriate time, those witnesses who have chosen to witness the execution will be
escorted to the execution facility witness room. Of the three proposed intervenors, only
Ms. Veillette has elected to do so. She will be accompanied in the witness room by two
additional witnesses, who will have access to PPE, and a small number of BOP staff, who
will be wearing face masks. Hand sanitizer will be available and the witnesses will have
access to a sink with hand soap. Ms. Branch Peterson and Ms. Gurel have elected to remain
in the staging area during the execution.

13.

At the conclusion of the execution, Ms. Veillette and the other witnesses in the execution
3

Case 2:20-cv-00336-JMS-DLP Document 51-1 Filed 07/08/20 Page 4 of 4 PageID #: 628

Appx60

facility witness room will be escorted back to the staging area. Then the rest of their group
will be picked up and the group will be escorted back to the designated area where they
were initially picked up.

I declare, under penalty of perjury, pursuant to 28 U.S.C. § 1746, that the foregoing is true
and correct.

Executed this 8th day of July, 2020.
^

(trc)

Rick Winter
Federal Bureau of Prisons

4

Case 2:20-cv-00350-JMS-DLP Document 17-1 Filed 07/09/20 Page 1 of 5 PageID #: 188

Appx61

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION

EARLENE BRANCH PETERSON, KIMMA GUREL,
and MONICA VEILLETTE,
Plaintiffs,
Case No. 2:20-cv-00350-JMS-DLP

v.
WILLIAM P. BARR, in his official capacity as
Attorney General of the United States; MICHAEL
CARVAJAL, in his official capacity as Director of the
Federal Bureau of Prisons; and T.J. WATSON, in his
official capacity as Complex Warden for Terre Haute
Federal Correction Complex,
Defendants.

AFFIDAVIT OF EARLENE BRANCH PETERSON
Earlene Branch Peterson, after being duly, sworn, hereby deposes and states
as follows:
1. My name is Earlene Branch Peterson. I am 81 years old, and reside in
Hector, Arkansas.
2. I am the mother of the late Nancy Mueller, and the grandmother
of the late Sarah Elizabeth Powell.
3. I attended every day of the trial of Daniel Lee in the federal

Case 2:20-cv-00350-JMS-DLP Document 17-1 Filed 07/09/20 Page 2 of 5 PageID #: 189

Appx62

courthouse in Little Rock, Arkansas except for one day when I was so ill that I had
to be hospitalized. I think about my daughter and granddaughter every day, and I
pray for them every day. I am not at peace, and my prayer is that peace will come
to me somehow when this is over.
4. I am under the care of a doctor for a number of heart problems. I
have had a heart attack that damaged my heart, and I have had open-heart
surgery. I have congestive heart failure at this time, and I must take medications
for my conditions. My doctor has advised me to remain at home and avoid personal
contact with others due to the COVID-19 pandemic.
5. I have not left my home county of Pope County, Arkansas, since
I became aware of the COVID-19 pandemic sometime in February. In normal times
I am able to travel, but during this pandemic I am not doing so.
6. I have been homebound since March 10, 2020, when I first became aware
that COVID-19 was present in Arkansas. I have been advised by my doctor to be
very careful about contact with others. I live with my son Paul Branch, and I have
seen my sister, but I am limiting my contact with others. My neighbor who is a
Certified Nursing Assistant has been getting my groceries and medicine for me and
delivering these necessities to me at home. I am very fearful of the virus due to my
age, my medical conditions, and the advice of my doctor. I bought a full tank of gas
for my car on March 10, and my tank is still full because I have not been going out
almost at all for four months.

Case 2:20-cv-00350-JMS-DLP Document 17-1 Filed 07/09/20 Page 3 of 5 PageID #: 190

Appx63

7. As victims in the Kehoe-Lee murder case, our family was given
the opportunity to receive notices and updates regarding the status of the cases, and
the punishment of the convicted. My daughter Kimma Gurel, my niece Monica
Veillette and I requested to be witnesses to the execution Daniel Lewis Lee set for
December of 2019. We were notified that we had been granted that right. Monica
helped with the arrangements with the people from the prison.
8. Monica and Kimma made plans to go to the witness room at the prison. I
was not sure I wanted to do that, but I began to make plans to go to Terre Haute
because I wanted to be with my family, and I was considering going to the prison.
In the meantime I had a medical issue, and the execution was cancelled.
9. When Danny Lee was scheduled to be executed in December, 2019, I was
making plans to travel to Terre Haute. Terre Haute, Indiana is about 580 miles
from Hector, Arkansas. My son Paul was planning to drive me to the prison. Paul
has multiple sclerosis. He is able to drive safely, but he and I are not able to make
long trips in one day. We planned to make the drive in two days, with one night of
rest in a hotel along the way. We planned to spend another night in Terre Haute,
and then return home with another night’s stay in a hotel. This planning stopped
when I had a medical problem, and when the execution was halted.
10. I was never asked by anyone from the prison or the government
about my ability to travel to the execution scheduled for July 13, 2020. If the
pandemic were not going on I would go to the execution. If I were to go now I would
have to violate my doctor’s orders to make the trip. Paul and I would have to travel

Case 2:20-cv-00350-JMS-DLP Document 17-1 Filed 07/09/20 Page 4 of 5 PageID #: 191

Appx64

by car across four states to Terre Haute to the prison there. We would have to stop
at least every two hours so I could walk because of my congestive heart failure. We
would also have to stop for gas and for meals. I would have to spend a total of three
or four nights in hotels. I would be exposed to the virus at all of these locations. I
would then be exposed at the prison to numerous people who are also in contact
with other prisoners. Monica told me that we would not be able to maintain social
distance at the prison. I could do these things during normal times, but not during
the pandemic.
11. I feel as if my right to attend this execution was taken away from
me when the date was set during the pandemic, which is getting worse. I am now
faced with an impossible choice of either not exercising my right to attend the
execution, or traveling in dangerous conditions which could cause me to become
very sick, or even die.
12. I want to attend this execution at a time when it is safe for people to
travel. Although I have some medical issues, I can travel if the conditions are not
especially dangerous.
13. I pray every day for my lost daughter and granddaughter. As a mother I
feel very sorry for Daniel Lewis Lee’s mother. I hope somehow by attending I can
find some peace. Right now I am not at peace.

I declare under penalty of perjury that the foregoing is true and accurate.

Case 2:20-cv-00350-JMS-DLP Document 17-1 Filed 07/09/20 Page 5 of 5 PageID #: 192

Appx65

Executed on July 9, 2020.

_/s/ Earlene Branch Peterson
Earlene Branch Peterson

Case 2:20-cv-00350-JMS-DLP Document 17-2 Filed 07/09/20 Page 1 of 4 PageID #: 193

Appx66

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION

EARLENE BRANCH PETERSON, KIMMA GUREL,
and MONICA VEILLETTE,
Plaintiffs,
Case No. 2:20-cv-00350-JMS-DLP

v.
WILLIAM P. BARR, in his official capacity as
Attorney General of the United States; MICHAEL
CARVAJAL, in his official capacity as Director of the
Federal Bureau of Prisons; and T.J. WATSON, in his
official capacity as Complex Warden for Terre Haute
Federal Correction Complex,
Defendants.

AFFIDAVIT OF MONICA VEILLETTE
Comes now Monica Veillette, who after being first duly sworn, deposes and
states as follows:
1. My name is Monica Veillette. I am over the age of eighteen
years, of sound mind, and reside in Spokane, Washington.
2. My grandmother is Earlene Branch Peterson, who is the mother
of the late Nancy Mueller. My mother is Kimma Gurel, who is the late Nancy
Mueller’s sister. Therefore, I am the niece of the late Nancy Mueller, and the cousin
of the late Sarah Elizabeth Powell.

Case 2:20-cv-00350-JMS-DLP Document 17-2 Filed 07/09/20 Page 2 of 4 PageID #: 194

Appx67

3. As a family member of the victims in the murder case involving
Daniel Lewis Lee, I have had numerous interactions with the Bureau of Prisons in
connection with the planned executions of Daniel Lewis Lee. I basically acted as
the family liaison to the Bureau of Prisons because I am more easily reached than
the others, and more technologically oriented than my mother or my grandmother.
4. Our family registered with the federal Victim Notification
Program to receive notices and updates with respect to the crimes involving our
family. When the first execution date for Daniel Lewis Lee was set, someone first
called my grandmother and told her about the upcoming execution. She understood
that representatives of our family had the right to attend.
5. My grandmother, my mother and I decided to go to Terre Haute.
We were all granted this right, and Mr. Steve Markle was the primary person who
worked with us regarding the arrangements for the trip. Although my grandmother
decided she probably did not want to be in the witness room, she did want to be
with our family in some place close by in Terre Haute. The final arrangements
were never made because the execution was called off. Although my grandmother
was involved in some of the discussions, I also began to be involved in the matters
relating to travel to the first execution.
6. When the second execution date was set, Mr. Steve Markle called
me directly to discuss it. My grandmother I believe had also told him to contact me
about her arrangements. I immediately expressed to him my concern about the

Case 2:20-cv-00350-JMS-DLP Document 17-2 Filed 07/09/20 Page 3 of 4 PageID #: 195

Appx68

COVID-19 pandemic for my grandmother, my mother, and myself. I believe my
grandmother also did so with him directly.
7. I have asthma, and am under a doctor’s care for it. I have
medication for treatment of asthma. When the pandemic started, my asthma
specialist called me and warned me to be extremely careful during the pandemic.
She advised me to adhere to Washington’s stay at home order. She said that I
should not travel, that I should avoid any crowds, and that I should always social
distance. I also have Centralized Sensitization Disorder (fibromyalgia). Because of
my health conditions I have not traveled during the pandemic, and I have been very
careful in every way. I always wear a mask in public places. Even when I visit my
mother I maintain social distance, wear a mask, and avoid any personal contact
with her.
8. Shortly after the second execution date was set I spoke with Mr.
Markle several times. I asked him very specifically about how my family could be
protected when at the prison. He told me that it would be impossible to maintain
social distancing at the witness room, in the hallways, in the transport vans, at
checkpoints and at other areas in the prison.
9. I asked Mr. Markle to send me something in writing describing
what measures the prison was going to take to keep me, my mother and my
grandmother safe so I would be sure and could share that with my family. I have
not ever received anything from him or anyone else which gave me any assurances

Case 2:20-cv-00350-JMS-DLP Document 17-2 Filed 07/09/20 Page 4 of 4 PageID #: 196

Appx69

regarding the safety of our family. I specifically remember that Mr. Markle told me
he could not send me anything in writing because it would be “discoverable.” I did
not know what that meant. When I asked him he said that anything he sent might
be used in court, and therefore he could not send me anything.
10. I am likewise very concerned about travel from Spokane,
Washington to Terre Haute during the pandemic. Spokane has recently had a big
uptick in coronavirus cases. I know that my mother and I would have to fly from the
Spokane airport first to a major airport, probably in Denver or California, and then
change planes one or more times to get to Indianapolis. I understood from Mr.
Markle that we would then have a trip in a transport of some kind to get to Terre
Haute.
11. The dangers to me and my family with respect to travel to Terre
Haute, staying a hotel, riding in transports, being inside the prison, being in the
witness room and the other areas are such that I and my family are being denied
our rights to attend this execution. I (like my family members) am being forced to
make a choice between protecting my health by following my doctor’s orders, or
risking my health in order to assert my right to attend the execution which, by its
very nature, will only happen once.
I declare under penalty of perjury that the foregoing is true and accurate.
Executed on July 9, 2020.

/s/ Monica Veillette
Monica Veillette

Case 2:20-cv-00350-JMS-DLP Document 9 Filed 07/08/20 Page 1 of 52 PageID #: 71

Appx70

1016

BOP EXECUTION PROTOCOL

■

r

■

t*r

i

V

..
t.

SENSITIVE - LIMITED OFFICIAL USE ONLY

l



Case 2:20-cv-00350-JMS-DLP Document 9 Filed 07/08/20 Page 10 of 52 PageID #: 80

Appx71

F.

Designation of Persons Required to Assist with the Execution
1.

G.

1025

Those persons necessary to carry out the execution will be
identified.

a.

The Warden, with the assistance of the Director, USMS, and
the Director, BOP, will be responsible for identifying,
selecting and obtaining the services of the individuals
administering the lethal injection.

b.

The Warden, in conjunction with the Regional Director, is
responsible for selection of the local staff involved in
perimeter security, transportation, and command post
operations, as well as crowd control, support functions and
access screening.

2.

All individuals identified for placement in vital or important positions
and identified alternates, will be attired in a uniform as determined
by the presiding Regional Director.

3.

No officer or employee of the Department of Justice will be required
to be in attendance at or participate in any execution if such
attendance or participation is contrary to the moral or religious
convictions of the officer or employee. Staff participation in the
execution process must be on a voluntary basis.

Other Approved Witnesses
1.

In addition to the United States Marshal designated by the Director
of the USMS (hereafter called the “Designated United Sates
Marshal”) and the Warden, the following persons will be present at
the execution.

a.

Necessary personnel selected by the Designated United
States Marshal and the Warden.

b.

Those attorneys of the Department of Justice whom the
Deputy Attorney General determines are necessary.

c.

Not more than the following members of persons selected by
the Warden:
(1)

Up to eight citizens (in identifying these individuals,
the Warden, no later than 30 days after the setting of
an execution date, will ask the United States Attorney
for the jurisdiction in which the inmate was prosecuted
to recommend up to eight individuals who are victims
10

Case 2:20-cv-00350-JMS-DLP Document 9 Filed 07/08/20 Page 11 of 52 PageID #: 81

Appx72

1026

or victim family members to be witnesses of the
execution); and
(2)

Ten representatives of the press.

2.

No other person will be present at the execution unless such person’s
presence is granted by the Director of the BOP. No person younger than
18 years of age will witness the execution.

3.

The Warden will notify all witnesses of the date, time and place of
the execution as soon as practicable before the designated time of
execution.

H.

Contact with the Vigo County Coroner

I.

1.

The Warden will contact the Vigo County Coroner to coordinate the
Coroner’s role.

2.

The Vigo County Coroner will be requested to provide direction
concerning:

a.

Transfer of custody of the body of the executed individual
from the Warden to the Vigo County Coroner;

b.

Transportation of the body from the Execution Room to the
Vigo County Coroner’s facility; and

Briefing of Institution Staff
1.

It is necessary to modify prison operations and communicate with
local staff throughout the execution process.

2.

Local prison administrators should be briefed by the Warden, as
appropriate, on plans for the execution, restrictions on access,
crowd control, additional security procedures, etc., on an on-going
basis.

3.

As soon as plans begin to evolve which will affect general prison
operations, briefings should begin and continue until operations
return to normal.

ii

